                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress


                              October 1, 2008, to March 31, 2009
                               Summary of OIG Accomplishments


Financial Results:
Questioned costs
         Issued during the reporting period                                                                                 $0
         Management decision during the reporting period                                                                    $0
Recommendations for funds to be put to better use
         Issued during the reporting period                                                                   $15,831,000
         Management decision during the reporting period                                                      $15,831,000

Investigative monetary recoveries                                                                                   $56,830

Investigative Results:
Cases opened ............................................................................................................. 67
Cases closed ............................................................................................................... 52
Criminal actions ........................................................................................................... 150
Administrative actions................................................................................................. 48
Hotline and complaint activity ..................................................................................... 435




Reports Issued: 59

                       Picture on the front cover: Embassy Dublin, Ireland
               Picture provided by Office of Overseas Buildings Operations



                                         Requests for additional copies of this
                                         publication should be addressed to:

                                                   Office of Inspector General
                                                    U.S. Department of State
                                                       OIG/EX, Room 810
                                                    1700 North Moore Street
                                                       Arlington, VA 22209



                                        Department of State Publication 11462
                                               Office of Inspector General
                                     TABLE OF CONTENTS




MESSAGE FROM THE ACTING INSPECTOR GENERAL................................................ 1
EXECUTIVE SUMMARY .................................................................................................... 3
CONGRESSIONAL ACTIVITIES AND OUTREACH .......................................................... 9


DEPARTMENT OF STATE
MIDDLE EAST REGIONAL OFFICE ................................................................................ 15
AUDITS ............................................................................................................................ 17
INSPECTIONS ................................................................................................................. 27
INVESTIGATIONS............................................................................................................ 49
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES........................ 53
APPENDIX 2: REPORTS ISSUED................................................................................... 55
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ................... 59
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS .................... 61
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS ........................................... 75


BROADCASTING BOARD OF GOVERNORS
AUDITS ............................................................................................................................ 79
INSPECTIONS ................................................................................................................. 81
INVESTIGATIONS............................................................................................................ 83
APPENDIX 1: BBG INVESTIGATIVE ACTIVITIES .......................................................... 85
APPENDIX 2: REPORTS ISSUED................................................................................... 87
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ................... 89
APPENDIX 4: AUDITS PERFORMED BY CONTRACTORS ........................................... 91
LIST OF ABBREVIATIONS .............................................................................................. 93
MESSAGE FROM THE ACTING INSPECTOR GENERAL


                                         I am pleased to present the Office of Inspector
                                         General (OIG) semiannual report for the Depart-
                                         ment of State (Department) and Broadcasting
                                         Board of Governors (BBG). This report covers the
                                         period ending March 31, 2009, as required by the
                                         Inspector General Act of 1978, as amended.

                                  This reporting period has been marked by several
                                  major events that have created exceptional new
                                  challenges and opportunities for OIG. The arrival
                                  of a new Administration in January—an event
     Acting Inspector General,
                                  accompanied by substantial changes in policy and
         Harold W. Geisel         personnel during even the smoothest of transi-
                                  tions—occurred at a time of economic upheaval
and uncertainty unlike any since the Great Depression. As the circumstances leading
to the economic meltdown were unraveled, it became clear that a key causal factor
was a lack of accountability and oversight. I have been heartened by the energy and
determination with which the Administration and Congress have set out to address
these deficiencies.

The passage of the American Recovery and Restabilization Act (ARRA) on February
17 included an unprecedented emphasis on accountability and transparency. Provi-
sions of the legislation included more than $250 million for oversight by the Inspec-
tors General of the 23 agencies responsible for disseminating ARRA funding; estab-
lishment of a Recovery Accountability and Transparency Board (RATB), headed by
a Special Inspector General with an additional $84 million in oversight funding; and
requirements for the most rigorous and public reporting standards ever imposed on
government funding. OIG is coordinating extensively with the Department, Con-
gress, the RATB and Inspector General community, the Office of Management and
Budget (OMB), and the Government Accountability Office, to ensure that the $602
million in ARRA funding appropriated to the Department will meet the high stan-
dards of accountability, transparency, and effectiveness envisioned in the ARRA.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   1
Final agency plans for expenditure of ARRA funding are due by May 15, and OIG
oversight plans are due May 30. In the course of our discussions to date, the Depart-
ment has raised two issues which I believe merit attention by the broader oversight
community. First, we are concerned that the information systems used by the Gen-
eral Services Administration (GSA) to track monies transferred for ARRA-funded
construction and contracts that fall below GSA’s $75-million threshold for major
projects may not provide the detail and timeliness required to meet ARRA’s rigorous
requirements for weekly reports of expenditures and progress on individual projects.
Since nearly all of the Department’s construction projects fall below this threshold,
both Department reporting and OIG oversight of these project funds would be
hampered by the limitations of the systems used to track smaller projects. Second,
GSA has notified agencies of an extensive list of renovation projects being funded
with ARRA funds appropriated to GSA. While GSA has announced these fast-track
renovation projects, it is not yet clear who will be responsible for identifying new
space for the dislocated offices, or who will pay the mandatory moving costs, which
have not been factored into the financial plans of the affected agencies. We are
working with the Department, GSA, and the broader Inspector General community,
including the RATB, to reconcile these issues and minimize potential disruptions to
the efficient operations of the affected agencies.

In closing, I would like to mention the great strides that OIG has made in restor-
ing its core capabilities and standing up new overseas operations, spurred on by
$20.5 million in FY 2009 supplemental and bridge funding. These resources have
allowed us to consolidate our overseas presence by fully staffing our Amman of-
fice; establishing a new field office, including a Middle East Investigative Division,
in Cairo; and standing up satellite offices in Baghdad and Kabul. We are grateful to
the Department, BBG, OMB, and the Congress for their support thus far, which has
made possible much of the work set forth in this Semiannual Report to the Congress
(SAR). We will continue to work with them to ensure that we are able to build upon
the gains of the past year by maintaining our operational flexibility while addressing
the present funding uncertainties that would affect us in FY 2010 and beyond.




                                                       Harold W. Geisel
                                                       Acting Inspector General




2       Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                                 EXECUTIVE SUMMARY



The auditors, inspectors, investigators, and other professionals in the Office of In-
spector General promote effective management, accountability, and positive change
in the Department of State, the Broadcasting Board of Governors, and the foreign
affairs community. During this reporting period, OIG identified nearly $16 million in
cost efficiencies—including funds to be put to better use, fines, and recoveries—and
issued 59 reports with recommendations to improve Department and BBG pro-
grams and operations. A full list of reports issued by OIG during this period can be
found in Appendix 2 of each agency section of this report.

This reporting period presented OIG with new challenges and opportunities arising
from the arrival of a new Administration, with an increased emphasis on oversight,
and passage of the American Recovery and Restabilization Act (ARRA), which
has set new standards for accountability and transparency in Federal funding. OIG
received $2 million, out of $602 million in ARRA funding appropriated to the De-
partment of State. We are working in close coordination with the Department, the
Recovery Accountability and Transparency Board (RATB), the Government Ac-
countability Office (GAO) and the broader Inspector General oversight community
to develop and implement an oversight plan that will meet the exceptional standards
of accountability, transparency, and timeliness that are the touchstone of the Recov-
ery Act.

The following report summarizes work carried out by OIG during the period Octo-
ber 1, 2008, through March 31, 2009.



Middle East Regional Office

OIG reviewed the status of the recommendations from the Secretary of State’s
Panel on Personal Protective Services in Iraq Report. The panel was composed of
outside experts and assembled following the Baghdad Nisoor Square incident of
September 16, 2007, in which 17 Iraqi civilians were killed and 24 wounded. The
panel reviewed the Department’s security practices in Iraq and provided recom-




   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   3
mendations to strengthen the coordination, oversight, and accountability of Embassy
Baghdad’s security practices. OIG found the Department’s and Embassy Baghdad’s ac-
tions had improved the protection practices of personal security contractors, enhanced
communication and coordination with coalition military forces and the Government of
Iraq, and increased contractor accountability. Despite improvements, the Department
still faced challenges.

OIG’s Middle East Regional Office also reviewed the Bureau of Diplomatic Security’s
(DS) management of personal protective services in Iraq and found that since Embassy
Baghdad opened in July 2004, private security contractors have become a critical tool in
providing personal protection. OIG’s review found that DS has been highly effective in
the protection of mission personnel in Iraq. However, the increase in use and number
of private security contractors strained the Department’s ability to effectively manage
them. Staff turnover, understaffing, increased workload, and a lack of standardized
operating policies and procedures further undermined contract management. OIG
recommended that the Department develop workforce plans to ensure sufficient staff
to oversee the Worldwide Personal Protective Services contract, and assign dedicated
contracting officer’s representatives to the Embassy and regional offices.



Office of Audits
OIG audited the procurement process for the new embassy compound (NEC) at
Baghdad to ensure that selected contracts were solicited and awarded to obtain the
best prices and value. This audit was in response to a request from the Chairman of
the U.S. Senate Committee on Foreign Relations. OIG selected eight Department
contracts, which totaled almost $672 million that included the majority of the NEC
Baghdad construction. The report addressed five of the eight contracts reviewed. OIG
determined that the Department generally followed applicable contracting laws, regula-
tions, policies, and procedures in soliciting and awarding four of the five contracts (two
sole-source contracts and two contracts that were competed), but that the contract files
supporting actions for three of the four contracts were not complete. In addition, for
the sole-source contract for the guard camp, the Department did not meet the “unusual
and compelling urgency” standard of the FAR because it did not adequately plan for
the procurement. OIG recommended the Department strengthen procurement com-
petition procedures and adhere to applicable acquisition requirements when either the
“unusual and compelling urgency” authority of the FAR or section 3 of the Foreign
Service Buildings Act (FSBA) is used to award contracts.




 4      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
During this reporting period, OIG completed an audit of undelivered orders (UDO)
in several Department bureaus to determine whether the balances were necessary
to pay for goods and services not yet received. Of the 389 sampled UDOs, totaling
about $614 million, OIG found that 106, amounting to about $15.8 million, were
not valid. Invalid UDOs affected the bureaus’ management of their funds, increased
the risk of duplicate or fraudulent payments, and resulted in inaccurate reporting by
the Department on its annual financial statements and reports submitted to OMB.
OIG recommended that the bureaus develop and implement a systematic process for
monitoring unliquidated obligations.

OIG contracted with independent external auditors to audit the financial statements
of the Department. Financial management continues to be a major challenge within
the Department. OIG’s independent external auditor was unable to express an
opinion on the Department’s 2008 financial statements by the deadline because the
Department was unable to respond to requests for documents in a timely manner,
and the auditor was not able to perform other auditing procedures to satisfy itself as
to the accuracy of the financial statements. Subsequently, the Department provided
sufficient documents to support the amounts reported. The auditor found certain
deficiencies and instances of noncompliance with selected provision of applicable
laws and regulations involving the Department’s financial system and found that the
Department’s financial management systems did not substantially comply with the
requirements of the Federal Financial Management Improvement Act of 1996.

OIG audited the International Trust Fund for Demining and Mine Victims Assis-
tance (ITF) as part of its continuing effort to determine whether U.S. Government
interests and resources are adequately administered. The primary objectives of this
audit were to: (1) determine whether the ITF adequately accounted for U.S. demin-
ing funds, especially those used for demining programs in Bosnia, and (2) determine
whether the ITF complied with the terms of the Trust Fund Administrative Agree-
ment. The demining program, administered by the Bureau of Political-Military
Affairs, Office of Weapons Removal and Abatement (PM/WRA), provides funding
to the ITF for demining operations. Based on its work, OIG held several briefings
with PM/WRA officials, including the Deputy Director for Programs, on conditions
it observed that required immediate attention. These conditions related to funds
accountability, compliance with the Trust Fund Administrative Agreement, use of a
grant agreement instead of a Trust Fund Administrative Agreement, solicitation for
demining contracts, and review of demining contractors. Based on the actions PM/
WRA officials have taken and said will be taken to address these issues OIG closed
out the audit.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   5
OIG reviewed the assertions from the Department’s Bureau of International Nar-
cotics and Law Enforcement Affairs (INL) FY 2008 detailed accounting and perfor-
mance submission to the Director of the Office of National Drug Control Policy
(ONDCP), which was prepared in compliance with ONDCP Circular Drug Control
Accounting. OIG could not attest to two of INL’s assertions and the certification re-
lating to drug control obligations for FYs 2007 and 2008 because OIG could not rely
on the financial systems that produced the data.

In response to the Federal Information Security Management Act of 2002 (FISMA),
OIG performed an independent evaluation of the information security program at
the Department. While improvements have been made since the 2007 report, OIG
identified controls needing further enhancements and made recommendations to the
Chief Information Officer.

OIG contracted with certified public accounting firms to perform agreed-upon pro-
cedures of indirect cost rates and a financial capability review to determine whether
various grantees complied with applicable regulations. These reviews were prepared
under the provisions of OMB Circulars A-122, codified at 2 CFR Part 230, Cost
Principles for Non-Profit Organizations, and A-110, Uniform Administrative Requirements for
Grants and Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations.

In accordance with OMB Circular A-133, Audits of States, Local Governments, and
Nonprofit Organizations, OIG completed 32 analytical desk reviews of single audits for
13 entities, with Department expenditures totaling $397,715,899. OIG conducted
its reviews using the President’s Council on Integrity and Efficiency’s Uniform Guide
for Initial Review of A-133 Audit Reports. The objectives of the initial reviews were to
determine whether the audit reports meet applicable reporting standards and require-
ments and to identify issues that may require management attention. OIG recom-
mended that the Department ensure that internal control weaknesses and instances
of noncompliance are corrected.



Office of Inspections
During this semiannual reporting period, OIG inspectors reviewed the U.S. Policy
Relative to Petroleum-Sector Contracting in Iraq, Global Repositioning Program, Currency
Exchange Rates Differing from Local Legally Available Rates, Equal Employment Opportunity
for Foreign National Employees, and the Department’s Implementation of Mantraps, as well
as full and limited-scope inspections of 20 overseas missions and one compliance
follow-up review. During the course of its inspections, OIG identified best practices

6        Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
as well as potential cost efficiencies and other improvements. OIG provided security
inspections for 17 of the 20 overseas missions. These are summarized in the classi-
fied annex to this report.

Responding to a request from four senators in July 2008, OIG initiated a review of
five interrelated issues on U.S. Government policies relative to the Iraqi petroleum
sector. The review concluded that there was an ambiguously articulated U.S. Govern-
ment policy linking passage of Iraqi Federal hydrocarbon legislation prior to con-
tracting by international oil companies. This policy evolved over time and does not
have the force of law. The U.S. Government cannot prohibit Iraq-related business
decisions by private corporations. When disseminated for the Embassy and other
U.S. Government agencies to keep in mind in dealing with Iraqis on this issue, the
guidance was not definitive.

The former Secretary of State’s Global Repositioning Program (GRP) was designed
to increase U.S. diplomatic engagement with a number of high-priority countries
around the world. It was a bold initiative, strategic in its concept and rapid in its
implementation. The GRP was implemented through a senior-level working group
that represented considerable experience in the Department and overseas. Major de-
cisions were made by Secretary Rice. OIG’s review noted that the GRP produced the
desired results in that it broke through various constraints to achieve, in a short pe-
riod of time, a significant reallocation of positions across regional and bureau lines.

OIG’s Review of the Department’s Implementation of Mantraps found that the Department
has made significant progress towards the installation of mantraps, such as fenced
areas to contain pedestrians and occupants of a vehicle during the vehicle’s inspec-
tion, at embassies and consulates worldwide; however, the results have been less
satisfactory at those posts rated Low or Medium for indigenous and transnational
terrorist threats.



Office of Investigations
OIG conducted an investigation into the improper access to the Passport Electronic
Records System (PIERS) after news media reports indicated that the passport files
of three presidential candidates had been improperly accessed by Department con-
tract employees. OIG subsequently received additional information that improper
accessing of PIERS records was widespread, and involved many Department em-
ployees and contractors. Sentencing and disciplinary action have been taken on both
contract and direct-hire employees. OIG’s pursuit of PIERS related investigations is



Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   7
ongoing. Because of the systemic weaknesses identified by OIG during the overall
PIERS inquiry, the Department has enacted greater safeguards to protect the privacy
of electronically stored passport-related information.

Other investigations this reporting period included allegations of conflict of inter-
est, embezzlement, and employee misconduct. This investigative work resulted in 12
referrals for prosecution; sentencings resulting in a total of 108 months of impris-
onment and probation; 3 indictments; 36 administrative referrals; and more than
$57,000 in recoveries.



International Broadcasting
OIG’s independent external auditor issued an unqualified opinion on BBG’s annual
financial statements as of September 30, 2008 and 2007. Although an unqualified
opinion was issued, the report brought to management’s attention two significant
deficiencies related to internal controls over the financial and accounting system and
accounts payable. The external auditor recommended that BBG take appropriate ac-
tion to address these weaknesses.

OIG evaluated the information security program at BBG in response to Security
Management FISMA. OIG could not perform an assessment of the adequacy of
BBG’s oversight and evaluation for 13 of its 14 identified systems because BBG had
not conducted all aspects of a formal security program during FY 2008 and there-
fore could not provide the supporting documentation that would have been available
for this FISMA review. As a result, BBG’s overall assessment is poor, with improve-
ments needed in several areas. OIG noted instances where improvements had been
made since the FY 2007 review, and it made several recommendations for additional
improvements.

During this reporting period OIG inspected Voice of America’s (VOA) Persian
News Network (PNN) and found it was the only platform from which the U.S. Gov-
ernment could reach an Iranian audience with unbiased news and information about
U.S. foreign policy and American life.VOA successfully built PNN (formerly Persian
Service) into its first full-fledged network in an extraordinarily short period of time.
Given the U.S. strategic interest in communicating with Iranians, PNN represented a
major achievement in setting up a network that reached approximately 29 percent of
Iranians.

OIG also inspected the International Broadcasting Bureau (IBB) Marketing Office,
Embassy Accra, Ghana and noted additional resources were needed to provide mar-
keting support for its affiliates and clients in West Africa.
 8       Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
     CONGRESSIONAL ACTIVITIES AND OUTREACH



Testimony
During this reporting period, Acting Inspector
General Harold W. Geisel testified before the
Commission on Wartime Contracting in Iraq
and Afghanistan on February 8, 2009. Acting
IG Geisel testified on the increased use of con-
tractors in both countries, the OIG compliance
report on recommendations from the Secretary
of State’s Panel on Personal Protective Services in Iraq,       Acting IG Geisel testifies before the Commission on
and OIG’s Review of Diplomatic Security’s Manage-               Wartime Contracting along with Department of De-
ment of Worldwide Personal Protective Services in Iraq.         fense Principal Deputy IG Thomas Gimble (far left)
                                                                and U.S. Agency for International Development
                                                                IG Donald Gambatesa.



Congressional Mandates
In response to legislative mandates and requests from Congress, OIG conducted the
following reviews during this semiannual period.

As mandated in 21 U.S.C. § 1703(D7) and 21 U.S.C. § 1704, Coordination with Na-
tional Drug Control Program agencies in demand reduction, supply reduction, and
state and local affairs, OIG produced report AUD/PP-09-09, OIG Attestation Review
of Accounting and Authentication of FY 2008 Drug Control Funds and Performance Report of
the Department of State.

As mandated by the Chief Financial Officers Act of 1990 (P.L. 101-576, as amend-
ed), OIG directed and monitored the following financial statement audits and other
work conducted by an independent external auditor:

AUD/FM-09-01 Independent Auditor’s Report on the U.S. Department of State’s Special-
Purpose Financial Statements

AUD/FM-09-02 and AUD/FM-09-02A Independent Auditor’s Report; U.S. Department
of State’s 2007 and 2008 Financial Statements




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009                9
AUD/FM-09-03 Independent Auditor’s Report on the Broadcasting Board of Governors’ 2008
and 2007 Financial Statements

AUD/IB-09-12 Management Letter Related to the Audit of the Broadcasting Board of Gover-
nors’ 2008 and 2007 Financial Statements



Congressional Requests
In response to a request from Senators John Kerry, Carl Levin, Claire McCaskill and
Charles Schumer in July 2008, the Department’s Acting Inspector General initiated
a review of five interrelated issues on U.S. Government policies relative to the Iraqi
petroleum sector, resulting in the report A Review of U.S. Policy Relative to Petroleum-
Sector Contracting in Iraq (ISP-I-09-28).

In responding to a request from Rep. Mark Steven Kirk, OIG completed a Limited-
Scope Review of Department of State Counterterrorism Designation and Vetting Procedures
(ISP-I-08-26).



Legislation Monitored
OIG reviewed and monitored the following legislation during this semiannual report
period:
•    H.R. 1, American Recovery and Reinvestment Act of 2009, now P.L. 111-5,
     which provided OIG with $2 million to provide oversight for $602 million
     provided to the Department of State under the Act.
•    H.R. 1105, Omnibus Appropriations Act, 2009, now P.L. 111-8, which pro-
     vided $37 million in base appropriated funds for OIG for FY 2009.
•    H.R. 928, Inspector General Reform Act of 2008, P.L 110-409, which amend-
     ed the Inspector General Act of 1978. This enacted changes to Inspectors
     General budgeting, HR and personnel issues, Web posting rules and created
     the Council of the Inspectors General on Integrity and Efficiency (CIGIE)
•    H.R. 2642, the Supplemental Appropriations Act, 2008, now P.L. 110-252
     signed into law on June 30, 2008, which provided OIG supplemental funding
     as well as 2009 bridge funding.
•    S. 2001, Duncan Hunter National Defense Authorization Act for Fiscal Year
     2009.P.L. 110-417, as it pertains to oversight issues.

10       Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
•   S. 2731, Tom Lantos and Henry J. Hyde United States Global Leadership
    Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008,
    which would require that the Inspectors General of the Department of State,
    the U.S. Agency for International Development (USAID), and the U.S. Depart-
    ment of Health and Human Services jointly develop five coordinated annual
    plans for oversight activity (financial audits and performance reviews) for fiscal
    years 2009 through 2013 for programs authorized under this Act and Section
    104A of the Foreign Assistance Act.
•   H.R. 2740, the Military Extraterritorial Jurisdiction Act (MEJA) Expansion and
    Reinforcement Act of 2007, which would require Inspectors General working
    in any military theater of operations to coordinate their work with a newly cre-
    ated theater investigative unit within the Federal Bureau of Investigation. Not
    enacted.
•   H.R. 2420, International Climate Cooperation Re-Engagement Act of 2007,
    which would assign oversight responsibility for the newly created International
    Clean Energy Foundation to OIG. Not enacted.
•   H.R. 1469 and S. 991, the Senator Paul Simon Study Abroad Foundation Act
    of 2007, as introduced in the House and Senate. Both bills assign oversight
    responsibilities for the newly created foundation to OIG. Not enacted.



Media Assistance and Outreach
During this semiannual period, OIG made its reports available to the media both
directly and online through regular postings on its Web site. Media expressed interest
in a broad range of OIG activities and initiatives resulting in 30 direct responses to
14 different issues.

Listed in order of interest, the issues that drew the greatest number of media inqui-
ries were the following:
    •    OIG work related to weapons contracting issues in Albania and allegations
         of involvement of embassy staff
    •    The Middle East Regional Office’s (MERO) Review of Diplomatic Security’s
         Management of Personal Protective Services in Iraq (MERO-IQO-09-02)
    •    Status of the Secretary of State’s Panel on Personal Protective Services in Iraq Report
         Recommendations (MERO-IQO-09-01)



Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   11
      •   Status of the Embassy Baghdad inspection—pending release
      •   The inspection A Review of U.S. Policy Relative to Petroleum-Sector Contracting
          In Iraq (ISP-I-09-28A) regarding the Iraqi/Kurdistan oil contracts and the
          pending Iraq Hydrocarbon Act

Additional inquiries included: the Mideast Broadcasting Network/Al Hurra
inspection; MERO’s Iraqi Refugee Resettlement Processing report; OIG’s
testimony remarks before the Commission on Wartime Contracting; Leahy
Amendment compliance for inspections related to vetting non-U.S. person-
nel for security training in the U.S.; and work currently in progress, includ-
ing the status of the inspection of the Department of State’s Office of the
Historian.

During President Obama’s initial visit to the Department, he had an exchange with
a member of OIG’s staff who had prior Foreign Service experience in Indonesia.
Because the dialogue was conducted in Indonesian, it generated immediate media
interest. This resulted in several interviews for the staff, including Voice of America
Indonesia and the Huffington Post.




 12        Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
U.S. DEPARTMENT OF STATE
                   MIDDLE EAST REGIONAL OFFICE



Status of the Secretary of State’s Panel on Personal
Protective Services in Iraq Report Recommendations
(MERO/IQO-09-01)

In October 2007, the Secretary of State’s Panel on Personal Protective Services in
Iraq (the Panel), composed of outside experts, was assembled following the Baghdad
Nisoor Square incident of September 16, 2007, in which 17 Iraqi civilians were killed
and 24 wounded. The Panel reviewed the Department’s security practices in Iraq and
provided recommendations to strengthen the coordination, oversight, and account-
ability of Embassy Baghdad’s security practices. OIG examined the status of the
Panel’s recommendations and whether changes in operations enhanced the protec-
tion of U.S. mission personnel and furthered U.S. foreign policy objectives.

OIG found that the Department and Embassy Baghdad actions had improved the
protection practices of the Department’s personal security contractors, enhanced
communication and coordination with coalition military forces and the Government
of Iraq, and increased contractor accountability. In addition, the Department and
Embassy Baghdad had successfully completed 11 of the Panel’s recommendations,
were in the process of implementing four, and were awaiting actions by third par-
ties to complete an additional three. Finally, changes in security practices resulted in
a more professional personal protective services operation and in the curtailment of
overly aggressive actions toward Iraqi civilians by personal security teams on protec-
tion movements.

Despite improvements, the Department still faced numerous challenges, including
determination of private security contractors’ status in light of the Status of Forces
Agreement governing the relationship between Iraq and the U.S. military and its
contractors, an Iraqi public opposed to the use of private security contractors, and
curtailment and increased costs of private security contractors if immunity from
Iraqi prosecution was lifted.




 Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   15
Review of Diplomatic Security’s Management
of Personal Protective Services in Iraq
(MERO/IQO-09-02)

Since Embassy Baghdad opened in July 2004, private security contractors have
become a critical Department tool to provide personal protection. This report was
the second in a series on the Department’s management of the personal protective
services in Iraq. The report included information on the Bureau of Diplomatic Se-
curity’s (DS) management of the security program in Iraq, how security requirements
were determined, and the factors considered when deciding on the geographical ar-
ray of security contractors, DS staff, and equipment.

OIG’s review found that DS had been highly effective in the protection of mission
personnel in Iraq. However, the rapid rise in use and number of private security con-
tractors strained the Department’s ability to effectively manage them. Staff turnover,
understaffing, increased workload, and a lack of standardized operating policies and
procedures further undermined contract management. OIG specifically noted there
was no attempt to ensure the accuracy of personnel rosters (muster sheets) at their
origin in the field, and therefore, no means to verify personnel labor costs. In ad-
dition, Embassy Baghdad’s use of contractors to manage and control government-
furnished equipment may have violated Federal Acquisition Regulation policy that
contractors shall not be used to perform “inherently governmental” functions.
Finally, OIG found that there had been no assessments or analysis to determine the
personal protective service requirements in Iraq.

OIG recommended that DS and the Bureau of Administration develop workforce
plans to ensure sufficient staff to oversee the Worldwide Personal Protective Services
contract, and assign dedicated contracting officer’s representatives to Embassy Bagh-
dad and Regional Embassy Offices to oversee contractor activities. OIG also recom-
mended that DS develop and publish standards, policies, and procedures for manag-
ing private security contractors, and assess security requirements in Iraq to determine
the necessary number of security personnel, where they should be deployed, and the
level and manner of protection.




16      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                                              AUDITS


Financial Management

Audit of Undelivered Orders (AUD/FM-09-07)

OIG conducted an audit to determine whether the undelivered orders (UDO) in
the Bureaus of Overseas Buildings Operations (OBO), International Narcotics and
Law Enforcement Affairs, and Information Resource Management were valid; that
is, the balances on the UDOs were necessary to pay for goods and services not yet
received.

Each of the three bureaus audited had a significant number of invalid UDOs. Of the
389 sampled UDOs, totaling about $614 million, OIG found that 106, amounting to
about $15.8 million, were not valid. The large number of invalid UDOs existed pri-
marily because the bureaus did not have a systematic process for monitoring them.
Invalid UDOs affected the bureaus’ management of their funds, made the monitor-
ing of unliquidated obligations more difficult, and increased the risk of duplicate or
fraudulent payments. In addition, invalid UDOs resulted in inaccurate reporting by
the Department on its annual financial statements and in budgetary reports submit-
ted to the Office of Management and Budget (OMB).

By the end of OIG’s fieldwork, the bureaus had taken actions to reduce their invalid
UDOs. However, additional bureau controls were needed. OIG recommended that
the bureaus develop and implement a systematic process for monitoring unliqui-
dated obligations, assess their obligations to determine instances in which automatic
deobligations would be appropriate, and determine whether balances on the invalid
UDOs that OIG had identified were necessary.



Independent Auditor’s Report on the U.S.
Department of State’s Special-Purpose
Financial Statements (AUD/FM-09-01)

OIG engaged an independent external auditor to audit the financial statements of
the Department as of September 30, 2008 and 2007, and for the years then ended.
The independent external auditor was unable to express an opinion on the Depart-

Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   17
ment’s 2008 financial statements by the November 17, 2008, deadline imposed by
OMB. The Department’s general purpose financial statements are the source of the
amounts presented in the special-purpose financial statements; thus the independent
external auditor was not able to express, and did not express, an opinion on the De-
partment’s 2008 special-purpose financial statements. The special-purpose financial
statements are used by the Department of the Treasury to prepare government-wide
financial statements.



Independent Auditor’s Report on the U.S.
Department of State’s 2008 and 2007
Financial Statements (AUD/FM-09-02 and
AUD/FM-09-02A)

OIG’s independent external auditor was unable to express an opinion on the De-
partment’s 2008 financial statements by the November 17, 2008, deadline for issuing
the report because of scope limitations. The Department was unable to respond to
requests for documents in a timely manner, and the auditor was not able to perform
other auditing procedures to satisfy itself as to the accuracy of the 2008 financial
statements.

Subsequently, the Department provided the auditor with sufficient documents to
support the amounts reported on the 2008 financial statements. The auditor satis-
fied itself that the amounts presented in the Department’s 2008 financial statements
were presented fairly in all material respects in conformity with accounting principles
generally accepted in the United States.

The auditor found certain deficiencies in the Department’s internal controls that the
auditor considered to be significant deficiencies and instances of noncompliance
with selected provisions of applicable laws and regulations involving the Depart-
ment’s financial system. The auditor also found that the Department’s financial man-
agement systems did not substantially comply with the requirements of the Federal
Financial Management Improvement Act of 1996.




18      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Limited Review of Business Class Travel at a
Department of State Bureau (AUD/SI-09-08)

During January 2009, OIG conducted a limited review of business class travel made
by officials of a Department bureau during fiscal years 2007 and 2008. The purpose
of the review was to determine whether the officials complied with Federal and De-
partment guidance as it relates to overseas and business class travel.

Based on its review, OIG found that the officials did not always adhere to travel
regulations for properly preparing, authorizing, and maintaining documentation
required by the guidance.

OIG recommended that the respective bureau consider appropriate actions to ensure
that travel documentation for officials complies with Federal Travel Regulations and
Department guidance. Such actions should ensure that required supporting docu-
mentation is accurate, complete, and properly approved by appropriate officials.



Property and Procurement

Audit of Procurement Competition for the
New Embassy Compound at Baghdad, Iraq
(AUD/IQO-09-04)

OIG initiated this audit to determine whether the Department followed applicable
regulations, policies, and procedures in the solicitation and award phases of the pro-
curement process for the new embassy compound (NEC) at Baghdad to ensure that
selected contracts were solicited and awarded to obtain the best price and value. This
audit also responded to a January 2007 request and an April 2007 follow-up letter
from the Chairman, U.S. Senate Committee on Foreign Relations, to review procure-
ment procedures used to award selected NEC Baghdad contracts.

OIG judgmentally selected eight Department contracts, which totaled almost $672
million, and included the majority of the NEC Baghdad construction contracts
awarded by the Department’s Bureau of Administration, Office of Logistics Man-
agement, Office of Acquisition Management (A/LM/AQM), on behalf of OBO.
For one contract, OIG reviewed two task orders. OIG determined that five of the


Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   19
contracts were awarded competitively in accordance with the Federal Acquisition
Regulation (FAR) and three were sole sourced. The report addressed five of the eight
contracts reviewed. Based on information OIG received at the end of the audit,
OIG will address the solicitation and award of three competitively bid contracts (for
housing, infrastructure, and support facilities) separately in a subsequent report.

One sole-source contract (for a guard camp) was awarded under the “unusual and
compelling urgency” provision of the FAR (FAR § 6.302.2), which can be used to
waive the competition requirement in certain circumstances. The Department used
its statutory authority under section 3 of the Foreign Service Buildings Act (FSBA)
of 1926 to award the remaining two sole-source contracts: for construction of the
unclassified portions of the new office building and for engineering and support
services. The Department’s legal adviser said that FSBA section 3 does not give
OBO blanket authority to waive the FAR, and in practice, this authority has been
used only to waive the competition clauses. Department procurement officials said
that although there are no formal Department regulations or guidance governing the
FSBA section 3 waiver practice, they follow the FAR to ensure that the Department
receives a fair and reasonable price.

OIG determined that the Department generally followed applicable contracting laws,
regulations, policies, and procedures in soliciting and awarding four of the five con-
tracts (two sole-source contracts and two contracts that were competed) but that the
contract files supporting actions for three of the four contracts were not complete.
In addition, for the sole-source contract for the guard camp, the Department did not
meet the “unusual and compelling urgency” standard of the FAR because it did not
adequately plan for the procurement.

Because the Department determined it was necessary to sole source three contracts
to meet the 24-month schedule to complete the NEC and because there was incom-
plete sole-source justification documentation in the contract files, OIG could not
determine whether the government received the best value and paid the best price
for the $110.6 million awarded in sole-source contracts for the new office building,
engineering and support services, and the guard camp.

OIG recommended that A/LM/AQM, in coordination with the Office of the Pro-
curement Executive, strengthen procurement competition procedures and adhere to
applicable acquisition requirements when either the “unusual and compelling urgen-
cy” authority of the FAR or section 3 of the FSBA is used to award contracts.




 20     Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
International Programs

Close Out of Audit of the International Trust
Fund (AUD/IP-09-10)

During July 2007, OIG initiated an audit of the International Trust Fund for Demin-
ing and Mine Victims Assistance (ITF) as part of its continuing effort to determine
whether U.S. Government interests and resources are adequately administered. The
primary objectives of this audit were to: (1) determine whether the ITF adequately
accounted for U.S. demining funds, especially those used for demining programs in
Bosnia, and (2) determine whether the ITF complied with the terms of the Trust
Fund Administrative Agreement. The demining program, administered by the Bu-
reau of Political-Military Affairs, Office of Weapons Removal and Abatement (PM/
WRA), provides funding to the ITF for demining operations. Based on its work,
OIG held several briefings with PM/WRA officials, including the Deputy Director
for Programs, on conditions it observed that required immediate attention. These
conditions related to funds accountability, compliance with the Trust Fund Adminis-
trative Agreement, use of a grant agreement instead of a Trust Fund Administrative
Agreement, solicitation for demining contracts, and review of demining contractors.
Based on the actions PM/WRA officials have taken and said will be taken to address
these issues, OIG closed out the audit.



OIG Attestation Review of Accounting and
Authentication of FY 2008 Drug Control
Funds and Related Performance Report of the
Department of State (AUD/PP-09-09)

OIG reviewed the assertions from the Bureau of International Narcotics and Law
Enforcement Affairs (INL) FY 2008 detailed accounting and performance submis-
sion to the Director of the Office of National Drug Control Policy (ONDCP),
which was prepared in compliance with ONDCP Circular Drug Control Accounting,
dated May 1, 2007. The submission is the responsibility of the Department. OIG
could not attest to two of INL’s assertions and the certification relating to drug con-
trol obligations for FYs 2007 and 2008 because OIG could not rely on the financial
systems that produced the data. Except for these qualifications, nothing came to
OIG’s attention that caused it to believe that the remainder of INL’s assertions did
not, in all material respects, reliably represent the Accounting and Authentication of
FY 2008 Drug Control Funds and Related Performance data for all years presented
in the submission and comply with ONDCP criteria.
Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   21
Information Technology

Review of the Information Security Program
at the Department of State (AUD/IT-08-36)

In response to the Federal Information Security Management Act of 2002 (FISMA)
[44 U.S.C. § 3545 et seq], OIG performed an independent evaluation of the informa-
tion security program at the Department. OIG reviewed the Department’s progress
in addressing information management and information security program require-
ments per FISMA and other statutory requirements, including OMB guidance. OIG
assessed performance in areas such as inventory, plan of action and milestones
(POA&M), certification and accreditation (C&A), security planning, contingency
planning, risk management, incident response, security awareness and training, con-
figuration management, and privacy requirements.

Since 2007, the Department has taken several steps to improve management con-
trols, including conducting a comprehensive data call of all of its domestic bureaus
and overseas posts in an effort to accurately identify its FISMA reportable inventory.
The Department improved its POA&M process by developing databases to man-
age the POA&M process and posting a toolkit on its website to assist system owners
with the POA&M process for those systems that require C&A. The Department
improved its C&A process and quality, and it also made progress in addressing its
privacy responsibilities. The Department documented its agency-wide requirements
for configuration management within policy established by the Bureaus of Diplo-
matic Security (DS) and Information Resource Management (IRM). Further, the
Department implemented several new initiatives in FY 2008 to improve its incident
reporting services and analyses. Finally, the Department began addressing the aware-
ness training requirement for non-system employees—an issue previously reported
by OIG.

While improvements have been made, OIG identified controls needing further
enhancements. Recommendations were made to the Chief Information Officer to
ensure that:
     •   annual inventory data call activities are rescheduled to allow sufficient time to
         complete the analysis of pending items prior to the annual FISMA review
     •   system owners are provided with improved guidance for properly identifying
         contractor-owned or -operated systems and how to report them for systems
         inventory purposes
     •   national security systems are properly classified and accounted for by IRM
         and DS in their respective FISMA inventories

22       Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
     •    a method is developed and made available to systems owners for providing
          timely and complete updates to POA&M data
     •    system connection agreement controls between Department system owners
          and external connection system owners are developed and tested to serve as
          a compensating control for systems security plan testing
     •    critical controls are identified and tested annually
     •    the policy on contingency planning is updated to include a requirement that
          test results are incorporated into an updated contingency plan
     •    guidance is provided to systems owners for ensuring adequate documentation
          and incorporation of test results into the POA&M process
     •    a process is developed and documented for identifying and describing
          interconnectivity between contractor systems and the Department
     •    Interconnection Security Agreements and Memoranda of Agreement/
          Understanding are developed and maintained for contractor-owned and/or
          -operated systems
     •    a process is established to monitor and validate security awareness training
          provided to those individuals without access to Department networks



Contracts and Grants

Independent Accountants’ Reports

During this reporting period, OIG contracted with two certified public accounting
firms, as specified, to perform agreed-upon procedures of indirect cost rates and a
financial capability review, under the provisions of Office of Management and Bud-
get (OMB) Circulars A-122, codified at 2 CFR Part 230, Cost Principles for Non-Profit
Organizations, and A-110, Uniform Administrative Requirements for Grants and Agreements
With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations. The
organizations that were reviewed and the results of the agreed-upon procedures are
as follows:

         Independent Accountants’ Report on the Applica-
         tion of Agreed-Upon Procedures on Indirect Cost
         Rates Proposed by the Open Society Institute
         (AUD/CG-09-05)
L.F. Harris & Associates, CPA, P.A., determined that the Open Society Institute’s
accounting system was inadequate for the purpose of accumulating and reporting
indirect costs under the provisions of OMB Circulars A-122 and A-110. As a result,


Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   23
for the fiscal years ended December 31, 2005, 2004, and 2003, the accountants took
exception to the indirect cost rates reported by the Institute and found that it did not
capture indirect costs in accordance with OMB Circular A-122. Therefore, the inde-
pendent accountants were unable to recompute the Institute’s indirect cost rates for
those fiscal years. The independent accountants recommended that the Bureau of
Educational and Cultural Affairs require the Institute to establish control procedures
to prevent expenses from being allocated to federal programs that do not benefit
federal awards and prevent federally unallowable expenses from being charged or
allocated to federal programs. The independent accountants also recommended that
the Bureau require the Institute to: (1) strengthen internal controls over cash dis-
bursements, (2) establish appropriate policies and procedures to ensure that costs are
adequately documented and accounted for in accordance with applicable provisions
of OMB Circular A-122, and (3) bring its accounting system into full compliance
with Circular A-122.



       Independent Accountants’ Report on the Appli-
       cation of Agreed-Upon Procedures on Indirect
       Cost Rates Proposed by the American Council of
       Learned Societies (AUD/CG-09-06)
L.F. Harris & Associates, CPA, P.A., determined that the accounting system of the
American Council of Learned Societies was adequate for accumulating and re-
porting the Council’s indirect costs under the provisions of OMB Circulars A-122
and A-110. However, the accountants took exception to the rates reported by the
Council for the fiscal years ended September 30, 2005, 2004, and 2003, and recom-
mended that the Bureau of Administration, Office of Logistics Management, Office
of Acquisition Management, International Programs Division, accept and finalize
the Council’s indirect cost rates for the fiscal years specified at 10 percent of total
direct program costs in accordance with the limit established under provisions of the
grants.




 24      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
         Independent Accountants’ Report on the Applica-
         tion of Agreed-Upon Procedures on Direct and Indi-
         rect Costs Proposed, Financial Capability, and the
         Accounting System Used by Youth for Understand-
         ing, Inc. (AUD/CG-09-14)
 Leonard G. Birnbaum and Company, LLP, Certified Public Accountants, determined
 that Youth for Understanding, Inc., has more than adequate financial capability to
 perform under the proposed Department grant and that it has an accounting system
 appropriate for estimating, reporting, and recording costs under a federal flexibly
 priced award.



 Nonfederal Audits of Nonprofit Institutions
 OMB Circular A-133, Audits of States, Local Governments, and Nonprofit Organizations,
 establishes audit requirements for specified entities receiving federal awards. Public
 accounting firms employed by nonfederal entities conduct the audits. The firms file
 these single audit reports with the Federal Audit Clearinghouse, and OIG reviews
 audit reports involving Department funds and provides quality assurance and general
 oversight.

 OIG conducted its reviews using the President’s Council on Integrity and Effi-
 ciency’s Uniform Guide for Initial Review of A-133 Audit Reports. The objectives of the
 initial reviews were to determine whether the audit reports meet applicable reporting
 standards and OMB Circular A-133 reporting requirements and to identify issues
 that may require management attention.

 During this reporting period, OIG completed 32 analytical desk reviews of single
 audits for 13 entities, with Department expenditures totaling $397,715,899. OIG
 recommended that the Department ensure that internal control weaknesses and
 instances of noncompliance are corrected. (See chart on next page)




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   25
                                                 Department            Other Federal             Total
Report                               Fiscal        of State              Agency                 Federal
Number            Grantee             Year       Expenditures          Expenditures           Expenditures
09-A133001   Woodrow Wilson           2004                 $774,014             $1,428,403            $2,202,417
             International            2005                  894,932              1,596,242             2,491,174
             Center for Scholars      2006                1,142,915              1,198,626             2,341,541
09-A133002   Counterpart              2004                3,536,946             19,179,353            22,716,299
             International, Inc.      2005                2,274,486             23,337,944            25,612,430
                                      2006                2,390,825             21,638,337            24,029,162
09-A133003   Independent              2005                1,136,800                      0             1,136,800
             Women’s Forum            2006                  640,148                      0               640,148
09-A133004   Woodrow Wilson           2004                4,135,768                308,053             4,443,821
             National Fellowship      2005                5,036,632                      0             5,036,632
             Foundation
09-A133005   Cisco Learning           2006                1,135,975                 24,665             1,160,640
             Institute
09-A133006   International            2005                7,673,717             18,627,274            26,300,991
             Rescue Committee,        2006                8,416,787             29,015,220            37,432,007
             Inc.                     2007               20,665,230             23,131,066            43,796,296
09-A133007   American Council         2006                1,527,413                      0             1,527,413
             of Young Political       2007                1,221,303                      0             1,221,303
             Leaders
09-A133008   Shared Hope              2006                1,326,636                      0             1,326,636
             International and        2007                  449,898                232,039               681,937
             Affiliates
09-A133009   American Refugee         2005                7,543,895              9,093,431            16,637,326
             Committee                2006                7,179,351             10,618,846            17,798,197
                                      2007                7,477,769              9,107,383            16,585,152
09-A133010   A Call to Serve          2005                  427,008                295,900               722,908
             International, Inc.
09-A133011   Institute of             2004              94,047,763              24,500,760          118,548,523
             International            2005             100,118,738              14,810,259          114,928,997
             Education, Inc. and      2006             110,828,917              12,881,484          123,710,401
             Affiliate
09-A133012   Social Science           2004                  808,139                496,630             1,304,769
             Research Council         2005                  619,715                425,248             1,044,963
                                      2006                  876,874                738,460             1,615,334
                                      2007                  712,447                703,956             1,416,403
09-A133013   Pacific Intercultural    2004                  687,614                      0               687,614
             Exchange                 2005                  808,599                      0               808,599
                                      2006                1,198,645                      0             1,198,645
 TOTAL                                              $397,715,899           $223,389,579         $621,105,478




  26     Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                                        INSPECTIONS



Domestic Operations

Memorandum Report on Currency Exchange
Rates Differing from Local Legally Available
Rates (ISP-I-09-12)

The March 2008 inspection of Embassy Rangoon and the March 2007 inspection of
Embassy Caracas found that those embassies were facing large variances between le-
gal rates of exchange and parallel rates. The Foreign Affairs Manual does not provide
a clear procedure for chiefs of mission to request and receive Department approval
for authorizing transactions at exchange rates differing from local legally approved
rates. OIG recommended that the Office of the Legal Adviser, in coordination with
the Bureau of Human Resources and the Bureau of Resource Management, add a
provision in the Foreign Affairs Manual requiring chiefs of mission to request ap-
proval from the Department for authorizing foreign currency transactions at other
than the local, legally approved rates.




      Review of the Department’s Implementation of Mantraps
                    Report Number (ISP-I-09-29)

     The Department of State has made significant progress towards the instal-
     lation of mantraps—fenced areas to contain pedestrians and occupants
     of a vehicle during the vehicle’s inspection—at embassies and consulates
     worldwide. However, the lack of approved Overseas Security Policy Board
     security standards requiring mantraps and the absence of recent instruc-
     tions or directives from the Bureau of Diplomatic Security to overseas
     posts regarding the installation of mantraps have been contributing factors
     in the fewer number of mantraps at Low and Medium threat-rated posts.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   27
         Interim Review of the Global Repositioning Program
                              (ISP-I-09-09)

     The former Secretary of State’s Global Repositioning Program (GRP)
     was designed to increase U.S. diplomatic engagement with a number of
     high-priority countries around the world. It was a bold initiative, strategic
     in its concept and rapid in its implementation. The GRP was implemented
     through a senior-level working group that represented considerable ex-
     perience in the Department and overseas. Major decisions were made
     by Secretary Rice. The GRP produced the desired results in that it broke
     through various constraints to achieve, in a short period of time, a signifi-
     cant reallocation of positions across regional and bureau lines.

     In general, the new positions are being used effectively. However, their ef-
     fectiveness is limited by a lack of resources to support their work, including
     travel and representation funds and locally employed staff. As expected,
     the shift has reduced the ability of those posts and offices that lost posi-
     tions to accomplish necessary work, including outreach and voluntary re-
     porting. If repositioning becomes regularized, it can be done in a way that
     takes greater account of the Department’s strategic planning mechanisms
     and involves prioritizing of posts in terms of overall U.S. interests, and
     assessments of relative workload. This should be done largely through ad-
     ditional rather than repositioned personnel.

     This interim review of the implementation of the GRP identified the follow-
     ing:

     •    Post leadership is critical.

     •    GRP positions should be used flexibly to achieve transformational
          diplomacy goals.

     •    Resource support for the GRP positions is insufficient.

     •    American presence posts need a home office in the Department.

     •    Virtual presence posts are a useful way of structuring outreach, but
          there is confusion about what they are.

     •    There should be more coordination with the U.S. Agency for Interna-
          tional Development in the GRP and transformational diplomacy pro-
          cesses.




28        Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
    •    The Department needs more funds for programs in priority transforma-
         tional diplomacy countries, particularly if the U.S. Agency for Interna-
         tional Development is not present.

    •    The Department should undertake a concerted effort to achieve the
         goal that diplomats should spend less time behind their desks and
         more time getting out and around their host country.

    •    OIG, in its inspections of posts and bureaus over the past 5 years, has
         generally not found an excess of staff that could be cut without impair-
         ing U.S. interests.

    •    While the GRP has eased the workload problem in some key posts, it
         has exacerbated the situation in others.

    •    Guidance should be given to losing posts as to what functions they
         can cut.

    •    Given tight staffing and shortages of resources, future GRP efforts
         should be well prepared through a rigorous business plan.




Memorandum Report on Equal Employment
Opportunity for Foreign National Employees
(ISP-I-09-13)

Secretaries Albright, Powell, and Rice issued Statements on Equal Employment
Opportunity and Diversity endorsing greater protections for the foreign national
staff. OIG, however, continued to find that little had been done to implement Equal
Employment Opportunity protections that could be made available to national
employees. OIG found that cultural insensitivity on the part of officers and a lack of
implementing procedures and education were prevalent. OIG recommended that the
Bureau of Human Resources, in coordination with the Office of Civil Rights, estab-
lish a task force including representatives of the Office of Civil Rights, the Office
of Overseas Employment, and the Foreign Service Institute to develop, codify, and
promulgate processes and procedures to provide Equal Employment Opportunity
protection to the foreign national staff.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   29
        A Review of U.S. Policy Relative to Petroleum-Sector
                 Contracting in Iraq (ISP-I-09-28A)

     Responding to a request from four senators in July 2008, OIG initiated a
     review of five interrelated issues on U.S. Government policies relative to
     the Iraqi petroleum sector.

     The review concluded that there was an ambiguously articulated U.S.
     Government policy linking passage of Iraqi Federal hydrocarbon legisla-
     tion prior to contracting by international oil companies (IOC). This policy
     evolved over time and does not have the force of law. The U.S. Govern-
     ment cannot prohibit Iraq-related business decisions by private corpora-
     tions. When disseminated for the Embassy and other U.S. Government
     agencies to keep in mind in dealing with Iraqis on this issue, the guidance
     was not definitive.

     Passage of a national hydrocarbon legislation package is a benchmark set
     by both the Government of Iraq and the U.S. Congress and has been a
     central focus of political attention by Embassy Baghdad, Members of Con-
     gress, and U.S. cabinet officers. OIG concluded that the Government of
     Iraq’s failure or inability to reach agreement on a hydrocarbon legislation
     package should not detract from strong, consistent policy pressure from
     the U.S. Government.

     Short-term technical services agreements under negotiation were set
     aside by the Iraqi Government in September 2008. The objective of tech-
     nical service agreements (TSA) was to increase production from existing
     oil and gas fields (brown fields). On October 13, 2008, Iraqi Minister of
     Oil Shahristani announced a bidding process for longer-term brown field
     TSAs. Seven American IOCs were among firms that were prequalified to
     bid for these contracts. The U.S. Government’s posture is to approve of
     such TSAs. This has not been formalized as policy per se. However, the
     position has been communicated to the Government of Iraq.

     As of November 2008, the Government of Iraq had not opened any pro-
     cess for IOCs’ involvement in developing new areas (green fields) for ex-
     ploration or exploitation, whether via TSAs or through production sharing
     agreements (PSA). The inspectors found no articulated U.S. Government
     policy position on such potential contracts. However, there was a shared
     Iraqi-American perception that eventual, optimal development of Iraq’s
     vast petroleum potential will necessitate sizeable foreign involvement in
     terms of both capital investment and technical assistance.



30       Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
     Discussion of relevant U.S. Government policies and positions has taken
     place with both the Government of Iraq and with the Kurdistan Regional
     Government. The primary, relevant U.S. Government objective is passage
     of national hydrocarbon legislation. Actions that detract from that objective
     are unwelcome. Hence, the dialogue has been more accommodating with
     the Government of Iraq and more critical of Kurdistan Regional Govern-
     ment actions to include PSAs such as that with Hunt Oil. Overall, dissemi-
     nation of policy information across the spectrum of the U.S. Government
     has not been systematic.




Overseas Missions

Bureau of African Affairs

Inspection of Embassy N’Djamena, Chad
(ISP-I-09-02A)

In order to make Embassy N’Djamena and other embassies like it function even
minimally, the Department and the Bureau of African Affairs must take a hard look
at human and financial resources and make fundamental decisions about the value of
maintaining embassies such as this one, which cannot be adequately staffed, pro-
tected, or funded.

Embassy N’Djamena continued to be a “historically difficult-to-fill” post,1 and six
out of eight key positions were filled by first-tour officers, and temporary duty per-
sonnel, or were vacant at the time of inspection. Long gaps due to curtailments and
the difficulties of staffing the Embassy result in post experiencing a series of tempo-
rary duty stopgaps or vacancies in key positions. Adequate mentoring and develop-
ment of first-tour officers is difficult if not impossible when there are not enough
experienced, permanent officers at post.

1 “Historically difficult-to-staff ” posts are those where more than 50 percent of vacancies receive no
more than three bids on assignments for three out of four years.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009          31
The potential for a repeat of major unrest, coupled with the trauma of the February
evacuation, the looting and destruction of embassy housing, the brief June tempo-
rary relocation of most mission American staff to Cameroon, as well as the overall
threat environment, continued to have a significant negative impact on the morale of
those serving in Chad.

The Embassy needs to build a core group of competent locally employed (LE) staff.
Training, including training out of country, and mentoring of these LE staff by
experienced American officers is critical to successful development of this core LE
staff cadre.

Significant weaknesses in human resources, financial management, and general
services existed and were compounded by the upheaval in staffing due to the Febru-
ary evacuation. Embassy corrective action plans are a critical base on which to build
provision of appropriate administrative services, but must be followed and tracked
by senior management to develop consistent standards of service.



Inspection of Embassy Antananarivo,
Madagascar (ISP-I-09-03A)

Embassy Antananarivo was energetically engaging the Governments of Madagascar
and the Comoros on a broad range of issues. Especially in regard to the latter, there
was a risk of arousing unrealistic expectations about U.S. projects and support.

Embassy Antananarivo and the Department should assess the added value of rees-
tablishing a permanent diplomatic presence in the Comoros. The cost of sustaining
such an establishment likely would exceed $800,000 annually.

Many American personnel assigned to the mission were able to conduct business in
French, the language of the elites in both Madagascar and the Comoros. There was
little capacity to work directly in the local languages (Malagasy and Comorian) spo-
ken by the overwhelming majority of the population in the respective host countries.

The English Teaching Program, largest of its kind in Sub-Saharan Africa, was locat-
ed in the American Cultural Center, which was not in compliance with many security
standards. The English Teaching Program should be privatized, and the non-English
Teaching Program locally employed staff should be relocated. This could save the
U.S. Government more than $1 million in 3 years. The objective of supporting
expansion of school facilities in Antananarivo was understandable, but OIG recom-
mended that the Office of the Legal Adviser and OBO review embassy decisions to
accept gift property for use by the school.

32      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Inspection of Embassy Dar es Salaam,
Tanzania (ISP-I-09-04A)

OIG commended Embassy Dar es Salaam for its strong team spirit and overall
effectiveness. The Ambassador engendered a “one mission” approach, marked by
good cooperation among the sections and effective interagency coordination. The
entire staff was “on message.” Following the February 2008 visit by President Bush,
bilateral relations were at an all-time high.

The U.S. agenda in Tanzania was assistance driven. The United States was the major
international donor, providing massive economic assistance, especially in health-
related sectors. In FY 2008, bilateral assistance totaled $662 million. Over the next
5 years, an additional $698 million will be made available through the Millennium
Challenge Corporation. Major programs in the health sector were especially well
coordinated. Auditing was beyond the scope of this inspection, but it appears that
assistance programs were well managed.

Bilateral assistance programs create an expectation for long-term commitments that
may not be sustained or sustainable. Meantime, Tanzanian dependency on foreign
assistance and the distortions endemic to donor programs (notably supplanting Tan-
zanian Government budgetary commitment to programs) pose policy dilemmas. The
concept of reciprocal responsibilities between donor and recipient is embryonic and
fragile.

The entire mission was engaged in the public diplomacy outreach program. The
objective was to ensure that all relevant assistance programs were clearly perceived
to come from the American people, not individual agencies of the U.S. Government.
Nonetheless, the public affairs section was overstaffed with one of the largest locally
employed staff complements in the region. The section’s performance and efficiency
were hampered by a number of employees with performance issues.

The management section boasted a litany of accomplishments, including the con-
solidation of International Cooperative Administrative Support Services, coopera-
tive and productive meetings with management staff in other agencies, piloting new
systems for the Department of State, performing well despite understaffed units, and
dealing with ineffective computer replacements and limited bandwidth.

Unresolved political issues on Zanzibar, with the prospect of possibly turbulent
2010 elections in the archipelago, made this a focus of attention. The summer 2008




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   33
arrival of an American Presence Post/Zanzibar officer to work out of Embassy Dar
es Salaam would enable the mission to follow those events more closely. However,
establishment of an American Presence Post resident full time on Zanzibar was on
hold, reflecting budget-driven decisions in Washington.



Inpection of Embassy Maputo, Mozambique
(ISP-I-09-05A)

Although current leadership had achieved progress in instilling purposefulness and
professionalism, the long hiatus between ambassadors at Embassy Maputo had come
at a price; there was still a sense of drift in some areas.

The chargé d’affaires increasingly had devoted time and attention to the responsibili-
ties normally carried out by the ambassador. The chargé had successfully restored
the mission’s reputation across the spectrum of Mozambican society and within the
resident diplomatic community. Embassy Maputo had been assiduous and successful
in implementing programs that furthered transformational diplomacy.

Interagency rivalries and jealousies diminished the overall effectiveness of the mis-
sion. The effort to instill a “One Team, One Mission” approach was still more aspi-
ration than fact. The physical separation of offices (and the marked differences in
quality and comfort of those offices) posed management challenges that should be
ameliorated upon occupancy of a new embassy compound in about 2010.

In terms of numbers of employees, Embassy Maputo had doubled since 1998. The
management platform had not kept pace with program and staff growth. Deficien-
cies in the human resources management section required the attention of a long-
term, temporary-duty human resources officer.

The management section was expected to meet unrealistic expectations by custom-
ers unaccustomed to working in a difficult overseas environment. New management
in the general services section and new initiatives in housing were expected to result
in fewer complaints. However, until there was more equity of housing among the
Department, U.S. Agency for International Development (USAID), other agency
American staff, and third country nationals, morale would continue to suffer.

Embassy Maputo was commended for exemplary use of the talents of locally
employed staff working in the political/economic spheres and at the warehouse. In
some management units and the public affairs office, performance by some locally
employed staff was less impressive.


34      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Inspection of Embassy Accra, Ghana
(ISP-I-09-14A)

Embassy Accra worked successfully to develop the close bilateral relationship be-
tween the United States and Ghana. The mission’s policy goals of supporting de-
mocracy, economic growth, health and education, and counternarcotics were imple-
mented through extensive advocacy and assistance programs. The expansion of the
President’s Emergency Plan for AIDS Relief program required increased executive
office attention to overall planning and coordination among agencies at the mission.

Administrative management was a significant challenge for the mission, in part
because the number of American positions had doubled in recent years. Resources
and personnel had not kept pace. Embassy Accra’s security office was managing
the mission’s security program effectively; however, the mission’s emergency action
committee needed to update the emergency action plan. Recent staff turnover and
the absence of the political section chief on temporary duty in Baghdad limited the
activities and reporting of the political and economic sections. New arrivals and an
experienced political reporting officer on temporary duty were boosting the sections’
output, which was particularly important for covering the Ghanaian presidential elec-
tion in December 2008.

The consular section delivered services effectively but its staffing was inadequate.
With diversity visas doubling in FY 2009, the Embassy would need temporarily as-
signed adjudicators to meet statutory processing deadlines.



Inspection of Embassy Banjul, The Gambia
(ISP-I-09-15A)

The Embassy had a strong record of unusually effective public diplomacy success in
The Gambia, a moderate and peaceful West African nation. A modest resumption
of U.S. assistance would help promote continued democratization, human rights, and
pro-Western attitudes in The Gambia. This would also help counter efforts by radical
states, including Iran, Venezuela, and Cuba, who were seeking to increase their influ-
ence in a large Moslem society that is currently relatively tolerant of diverse religious
views.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   35
The Ambassador and the deputy chief of mission (DCM) needed to do a better job
of resolving morale issues, addressing serious interpersonal conflicts, and improving
the performance of key embassy sections.

Embassy Banjul’s consular section provided good service to American citizens but
had problems with visa referral issues and sometimes strayed from Departmental
guidelines and processes regarding nonimmigrant visas.

The DCM filled a combined DCM/management officer position and was responsi-
ble for the day-to-day administrative operations of the Embassy. In the 2010 Mission
Strategic Plan, the Embassy requested that the general services officer position be
converted to a management officer position and that the Embassy retain a local-hire
general services officer. OIG supported this request.



Inspection of Embassy Luanda, Angola
(ISP-I-09-19A)

Embassy Luanda was effectively focused on policy formulation and implementation.
This included not only improving bilateral relations and promoting democracy, but
also correctly lobbying Washington to more effectively engage with Angola, the sixth
largest supplier of oil to the United States and an increasingly important regional
player in Africa. The Embassy was energetically promoting commercial relations
with Angola, the third largest U.S. trading partner in sub-Saharan Africa. U.S. foreign
assistance programs on health, democracy, and economic reform were well managed
and met the Secretary’s goals for transformational diplomacy.

As Embassy Luanda made the transition to a medium-size embassy, it needed to con-
tinue putting into place standard administrative procedures and management con-
trols. The embassy needed to better utilize the Department’s policy on visa referrals.
Information management systems needed additional and more secure emergency
power. The International Cooperative Administrative Support Services (ICASS) con-
solidation presented management with challenges for managing general services and
providing quality customer service.

Angola’s increasing importance added to the Embassy workload and merited in-
creased staffing by the Department and other agencies. Living and working in An-
gola was difficult. The Embassy and the Department needed to work to recruit and
assign to post only the most skilled, energetic, and adaptable employees.

Although completed in 2005, the new chancery already needed some security up-
grades.
36     Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Inspection of Embassy Niamey, Niger
(ISP-I-09-22A)

The Ambassador and the DCM were providing strong, collaborative, and inclusive
executive direction to all mission elements, enabling the Embassy to achieve the mis-
sion’s primary objectives of combating terrorism, advancing regional stability, pro-
moting democracy, and improving living standards. The Ambassador’s calm, compe-
tent leadership, management guidance, and oversight ensured good internal controls,
security awareness, and a positive work ethic resulting in high morale in an isolated,
underdeveloped country.

Coordination and cooperation between Embassy officers and USAID’s personal ser-
vice contractors (PSC), who were administering over $122 million in 3-year U.S. as-
sistance money, was very good. The USAID PSC was administering the Millennium
Challenge Corporation’s Threshold Country Program ($23 million) and managing
the USAID Peace through Development programs ($21 million) and food security
programs ($65 million).

There should be no further delays in a major embassy compound renovation project,
scheduled for 2002 but delayed until 2010, that would address substandard electrical
systems, the lack of fire suppression systems and smoke alarms, and safety hazards
throughout the compound. The renovation of the compound was necessary for
proper embassy operations and safety.

The public affairs section’s public access cultural center, which included a self-sus-
taining English-teaching program and a circulating library, gave the mission excellent
access to important audiences in Niger.



Inspection of Embassy Nouakchott,
Mauritania (ISP-I-09-23A)

Embassy Nouakchott was being ably led by an experienced chargé d’affaires in the
absence, possibly long term, of the Ambassador. The country team worked in a
coordinated manner on the two principal U.S. goals of restoring democratic gover-
nance to Mauritania and counterterrorism. The mission was successfully advancing
U.S. interests in Mauritania despite the challenges of being in an isolated, hardship
post with a small staff of largely entry-level officers squeezed into overcrowded
offices in aging facilities. Lengthy gaps in the management officer position had led
to deterioration in services. The mission was understaffed to meet the requirements

Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   37
 for increased representation, advocacy, and reporting. OIG concurred with Embassy
 Nouakchott’s request for the addition of a mid-level political/economic officer.

 The status of “embedded” Special Operations Command military personnel in the
 mission was unclear with respect to lines of authority over such personnel. Notwith-
 standing this lack of clarity, which traces back to unresolved Departments of State
 and Defense issues at a global level, post leadership had developed on-the-ground
 coordination arrangements to ensure the work went forward effectively.

 The Bureau of Overseas Buildings Operations was planning a new embassy com-
 pound for Nouakchott. The August 2008 military coup in Mauritania had delayed
 acquisition of a site, which may, in turn, delay construction of a new embassy
 compound for a lengthy period of time. In view of the severe overcrowding and the
 prospect of an increase in staff, OBO should construct the new embassy compound
 (NEC) on the existing embassy premises. Construction on the existing site would
 save $5 million in land acquisition costs.



 Inspection of Embassy Ouagadougou,
 Burkina Faso (ISP-I-09-24A)

 Embassy Ouagadougou had done an exceptionally effective job on policy imple-
 mentation, management of resources, and management controls. The Embassy was
 on track to move into a NEC in early 2010. The Embassy had requested a coloca-
 tion waiver to allow its very effective American Cultural Center, English language
 program, and Martin Luther King, Jr. Library to continue functioning in Ouagadou-
 gou’s downtown area after the Embassy moves to a NEC. The Department needed
 to respond to the Embassy’s request by May 2009 in order to allow the mission to
 adequately plan its move to the NEC.

 Increasingly important close military cooperation between the United States and
 Burkina Faso merits a request by the Department that the Department of Defense
 establish a permanently staffed military presence at Embassy Ouagadougou. U.S. as-
 sistance programs closely tracked transformational diplomacy goals of strengthening
 security, consolidating democracy, and improving the lives of people.




38     Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Bureau of East Asian and Pacific Affairs

Inspection of Embassy Kolonia, Federated
States of Micronesia (ISP-I-09-17)

Despite its small size, Embassy Kolonia was advancing important U.S. interests and
providing a range of services in the complex relationship with the Federated States
of Micronesia. Interagency coordination on implementation of the Compact of
Free Association (COFA), had deficiencies that required attention from Washington.
Poor communication channels among U.S. agencies were contributing to a growing
divergence of policy views on how COFA was serving U.S. interests and whether it
fostered the Federated States of Micronesia’s self-reliance or dependence.

The Embassy was generally well-managed. It was heavily reliant on regional support
it received from Embassy Manila. Going forward, this support needed to be both
robust and sustained.

The NEC relieve overcrowding, provide space to colocate some mission elements
currently not colocated, and provide security that had been missing.

The public diplomacy outreach of Embassy Kolonia was impressive given the scant
resources at the disposal of this nonpresence public diplomacy post.



Inspection of Embassy Koror, Republic of
Palau (ISP-I-09-18)

Despite its small size, Embassy Koror was advancing important U.S. interests and
providing a range of services in the complex and multilayered bilateral relationship
with the Republic of Palau. After spending $10.8 million on a new embassy com-
pound, the Embassy will still be limited to unclassified communications and would
lose nonimmigrant visa operations following the move into the new embassy com-
pound unless the Bureau of Information Resource Management funds the additional
approximately $100,000 cost to outfit the controlled access area. The Embassy was
generally well-managed. The new embassy compound will greatly strengthen Em-
bassy Koror’s security posture.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   39
 Inspection of Embassy Majuro, Republic of
 the Marshall Islands (ISP-I-09-20)

 Despite its small size, Embassy Majuro was advancing important U.S. interests and
 providing a range of services in the complex relationship with the Republic of the
 Marshall Islands. The Ambassador and the deputy chief of mission had an effective
 leadership style that fostered positive working relations both within the Embassy and
 between the Embassy and other U.S. agencies in the Republic of the Marshall Is-
 lands. The Embassy was generally satisfied with the level of coordination with other
 U.S. agencies regarding implementation and oversight of U.S. assistance programs to
 the Republic of the Marshall Islands. There was good coordination of public affairs
 activities and messages among the agencies active in the Republic of the Marshall
 Islands.

 Embassy Majuro management operations received mixed reviews. Financial manage-
 ment operations were well run, but human resources and general services operations
 required improvement. Embassy Majuro was heavily reliant upon and pleased with
 the regional support it received from Embassy Manila. Information programs at
 Embassy Majuro met the needs of the users but had vulnerabilities that needed to be
 addressed.



 Inspection of Embassy Port Moresby, Papua
 New Guinea (ISP-I-09-25A)

 Embassy Port Moresby was effectively promoting U.S. goals in the region and raising
 the visibility of the United States through an active diplomatic agenda.

 Embassy Port Moresby’s locally employed staff and management operations required
 improvement. In addition, the quality of information management and telecommu-
 nications support was poor. Both American and locally employed staff in the infor-
 mation management office were short of the skill levels needed to address problems.
 Host country infrastructure limitations compounded the problems for which ad-
 equate budget-minded solutions had not yet been found.

 OBO had reached an agreement with a property owner to hold property in the
 Harbour City area until it is purchased. The purchase contract, which was supposed
 to be finalized in October 2008, had not yet been signed, and the Embassy had re-
 turned the funding to OBO. The NEC will be an OBO small secure compound with
 an expected completion date of 2010-11.

40    Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Inspection of Embassy Suva, Fiji (ISP-I-09-26A)

A major personnel turnover at Embassy Suva in summer 2008 involving concurrent
departure of the Ambassador, deputy chief of mission, and several other key offi-
cers weakened executive direction and productivity in the mission.

The Embassy’s political and economic reporting was overwhelmed by mandatory
reporting requirements on five countries, and embassy operations are sometimes
hampered by strained relations with the interim Government of Fiji.

The security assistance office’s area of operation was larger than the area under the
Ambassador’s authority. This disconnect hampered the operations of both the secu-
rity assistance office and mission management. It was in the best interests of the U.S.
Government that the two parties find a mutually satisfactory solution.



Bureau of European and Eurasian Affairs

Inspection of Embassy Dublin, Ireland
(ISP-I-09-07A)


Embassy Dublin’s noncareer Ambassador and seasoned deputy chief of mission had
led embassy staff through a period of management changes designed to bring the
local compensation scheme into compliance with the Irish social security system.

Interagency relations, while professional and productive, would have benefited from
greater transparency and inclusiveness on the part of post management. Embassy
Dublin had not utilized fully the National Security Decision Directive-38 (NSDD-38)
process to require other Federal agencies to contribute to the cost of security and ad-
ministrative support for new positions and the need to comply with chief of mission
mission-wide policies.

The success of American, British, and Irish diplomacy in bringing peace to Northern
Ireland had enabled Embassy Dublin to shift resources to other key objectives such
as seeking Irish Government support for U.S. approaches to the European Union.



Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   41
Most public diplomacy programs were well managed, but communication needed to
be improved among the Embassy, the Bureau of Educational and Cultural Affairs,
and the U.S.-Ireland Fulbright Commission.

The Embassy was providing efficient, customer-focused consular services to a
steadily increasing number of U.S. residents and a changing visa demographic. The
consular section needed to streamline behind-the-scene operations. The Embassy’s
internal management controls in both the consular and management sections were
not being applied in accordance with Department procedures and required greater
attention from post management.

Embassy Dublin needed to require a resolution of the status of locally hired Ameri-
cans employed at the Department of Homeland Security facilities in Shannon and
Dublin airports before allowing the expansion of preinspection operations.



Bureau of Near Eastern Affairs


Inspection of Embassy Tripoli, Libya
(ISP-I-09-01A)

Embassy Tripoli’s deputy chief of mission, now the chargé d’affaires, was focused
on the bilateral relationship and on embassy morale in a difficult working environ-
ment. He provided a steady, decisive hand at the Embassy’s helm and continuity and
consistency in implementing policy. Naming the deputy chief of mission as chargé
was the best decision for the Embassy.

Embassy Tripoli’s political and economic reporting was impressive in quality and
quantity, given a circumscribed reporting environment characterized by official
harassment, stringent travel restrictions, and the capricious nature of Libyan govern-
mental and quasi-government contacts. The Embassy received praise from Washing-
ton for its reporting.

While Embassy Tripoli’s move from a downtown hotel to two sites about 12.5 miles
apart was necessary, it was not ideal. The originally proposed timeline to renovate the
Villas compound and unite the staff there was extended. OIG remained concerned
that the timeline would change again, and contracting for certain upgrades remained
uncertain.


42      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Consular relations with Libya were poor and were not expected to improve until
the consular section begins processing and issuing all visas, not just official visas, in
Tripoli. The Department anticipated that this would help to lift limits and delays on
Libyan visas for American citizens and improve bilateral relations in other areas.

The management section, located at the chief of mission residence, provided full
support to the embassy staff with a small and still inexperienced locally employed
staff. Housing was spacious, repairs and maintenance were timely, and communica-
tions connectivity was effective.



Bureau of Western Hemisphere Affairs


Inspection of Embassy Montevideo, Uruguay
(ISP-I-09-06A)

The Ambassador and the country team were engaging intensively and effectively to
improve bilateral relations with Uruguay’s left-of-center coalition government, dem-
onstrating that the United States is prepared to work closely with Latin American
governments that maintain democratic institutions and respect human rights, regard-
less of their ideological orientation.

The Ambassador and the Embassy had secured important bilateral economic agree-
ments, including a trade and investment framework agreement, a bilateral investment
treaty, and a science and technology protocol, while effectively promoting U.S. busi-
ness and exports.

The Embassy had promoted close and effective law enforcement cooperation with
Uruguayan authorities despite the fact that U.S. law enforcement agencies were no
longer present in Montevideo. The Embassy was also increasing its training and
cooperation engagements with the Uruguayan armed forces and police, principally
related to Uruguay’s international peacekeeping role.

The Ambassador’s high priority public diplomacy agenda led to significant positive
shifts in Uruguayans’ perceptions of the United States—an impressive accomplish-
ment in a region where public approval of the United States was low. An additional
officer was needed to meet the public diplomacy staff shortage and sustain this
progress.


Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   43
There had been a lack of conformity with NSDD-38 provisions regulating mission
growth. The OIG team recommended that the mission regularize a position that had
not been authorized and adhere strictly to NSDD-38 provisions.

The Embassy failed to manage the local guard force program in a manner that as-
sured against any perception of favoritism or conflict of interest, despite embassy
policy guidelines to that effect.


         Compliance Follow-Up Review of Embassy Bogota,
                     Colombia (ISP-C-09-08A)

     OIG conducted a compliance follow-up review of the 2006 Inspection of
     Embassy Bogota. The compliance follow-up review (CFR) team was able
     to close the one remaining recommendation still outstanding in the 2006
     report. However, the OIG team made seven new recommendations as
     a result of their CFR. One of these pertained to embassy operations in
     Cartagena; three dealt with rightsizing the embassy in Bogotá; two per-
     tained to the locally employed staff savings plan; and one involved em-
     bassy switchboard coverage.




Inspection of Embassy Tegucigalpa,
Honduras (ISP-I-09-10A)

Embassy Tegucigalpa was appropriately focusing on rule of law and law enforce-
ment issues that related to nearly all program and policy implementation in Hondu-
ras. The Ambassador effectively used his high profile in Honduras and remarkable
access to press and television to forcefully advocate and advance U.S. policies, but the
public affairs section needed to shore up many aspects of its operation.

The consular section benefited from exceptionally strong leadership and high morale.
The section needed to address serious space issues to maximize efficiency in the visa
operations.




44       Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Embassy Tegucigalpa had already consolidated warehouse functions, but could save
further money by consolidating human resources, motor pool operations, and leas-
ing, which were being performed separately by the Department and other agencies.




Inspection of Embassy Guatemala City,
Guatemala (ISP-I-09-11A)

Intensely knowledgeable about Guatemalan issues, the region, and the Washington
policy context, the Ambassador and deputy chief of mission were assertive and ef-
fective in advancing U.S. objectives. Embassy Guatemala City had outstanding inter-
agency relations, especially among those agencies and Department sections involved
in counternarcotics. The narcotics affairs section itself was implementing a complex
and multifaceted program to good effect.

While there were some significant achievements, the public diplomacy program of
Embassy Guatemala was weak: its program rationale was flawed, and program imple-
mentation at times ignored or contradicted Department standards and practices.

The consular section handled with skill the second largest number of adoption cases
in the world, and the Embassy persuaded the Guatemalan Government to pass key
adoption reform legislation. Severe physical space constraints plagued the consular
section.

Embassy Guatemala City was suffering from management and management control
weaknesses, including unauthorized commitments and possible fiscal irregularities
that reflect neglect going back many years.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   45
                                     BEST PRACTICES

      Embassy Maputo, Mozambique

      Best Practice: Internet Newsletter for Resident American Citizens

      Issue: Mozambique is similar to other posts in Africa with a relatively
      small but stable American citizen population and the majority of them live
      outside the capital. The embassy newsletter was distributed to registered
      Americans who provided an e-mail address. This practice was discontin-
      ued for security reasons.

      Response: The consul began writing a monthly newsletter directed to
      the American resident population with information on issues like voting
      assistance and other items of use. The newsletter was also posted on the
      embassy Web site.

      Result: The Embassy was able to inform the American residents of
      important information and embassy visits effectively and at no additional
      cost. American citizens felt more in touch with the mission and better
      served.



      Embassy Dar es Salaam, Tanzania

      Best Practice: Consular Duty Officer Briefing

      Issue: The mission required virtually all direct-hire employees to serve as
      duty officers. Many of these employees were unfamiliar with duty officer
      responsibilities, especially consular emergencies.

      Response: The consul developed a Power Point briefing that he presents
      two or three times a year to all eligible duty officers explaining consular
      duty responsibilities and the action necessary in specific situations.

      Result: Mission duty officers were well prepared to serve and mistakes
      and unnecessary requests for assistance were greatly reduced.




46   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
          Embassy N’Djamena, Chad

          Best Practice: Reporting Officer Exchange Program

          Issue: Regional issues transcend the borders of neighboring posts, in
          this case Embassies N’Djamena, Khartoum, and Tripoli. Reporting of-
          ficers at each post gain a bilateral perspective from interactions with their
          respective host nation government contacts and other everyday activities.
          However, it would be helpful to develop broader perspective and depth of
          knowledge, which could lead to better contextual reporting and analysis.

          Response: The Ambassador initiated a process with nearby posts,
          where political officers from Embassy Khartoum and Embassy Tripoli
          travel to Embassy N’Djamena for a week of working in Chad on issues
          relating to the regional conflict.

          Result: This exchange, which functions among posts belonging to differ-
          ent Departmental bureaus (Near Eastern Affairs and African Affairs), aids
          U.S. Government goals and objectives by giving reporting officers per-
          spective and depth of knowledge. It fosters collaboration between posts
          and geographical bureaus on issues of regional importance, the synergies
          of which could bear results by drawing upon the combined talents and
          viewpoints of a more varied pool of officers.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   47
48   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                                     INVESTIGATIONS


Passport Information Electronic Records
System Inquiry

On March 20, 2008, Undersecretary of State for Management Patrick F. Kennedy
requested that OIG conduct an investigation after news media reports indicated that
the passport files of three presidential candidates had been improperly accessed by
three different Department contract employees on three different occasions through
the Passport Information Electronic Records System (PIERS). OIG subsequently
received additional information that improper accessing of PIERS records was wide-
spread, and involved many Department employees and contractors. The following
are actions that have resulted to date from OIG investigations involving this issue:

OIG conducted an investigation of a Department contract employee who improp-
erly accessed PIERS by looking up the passport files of two presidential candidates
as well as other individuals for non-official purposes. The investigation determined
that the contract employee electronically accessed through PIERS over 200 different
passport applications without authorization. The contract employee was terminated
from his assignment with the contractor. He pleaded guilty in U.S. District Court for
the District of Columbia to one count of Unauthorized Computer Access, and on
December 19, 2008, was sentenced to 12 months probation and 50 hours of com-
munity service. (08-014)

                                          ______________

OIG conducted an investigation of a Department of State contract employee who
improperly accessed PIERS by looking up the passport files of a former President
as well as other individuals for non-official purposes. The investigation determined
that the contract employee electronically accessed through PIERS over 44 different
passport applications without authorization. When interviewed by OIG regarding his
actions, the employee denied accessing the records improperly, but the investigation
revealed that there was no official purpose for the accesses. As a result, the contract
employee was terminated from his assignment with the contractor. On January 27,
2009, the contract employee pleaded guilty in U.S. District Court for the District of
Columbia to one count of Unauthorized Computer Access. Sentencing is currently
pending. (08-037)




 Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   49
OIG conducted an investigation of a contract employee who was improperly access-
ing PIERS to view the records of celebrities and other prominent individuals such
as two former Secretaries of State. The investigation determined that the contract
employee electronically accessed through PIERS over 167 different passport applica-
tions without authorization. The contract employee was terminated from employ-
ment and on January 14, 2009, pleaded guilty in U.S. District Court for the District
of Columbia to one count of Unauthorized Computer Access. On March 23, 2009,
the former contact employee was sentenced to 12 months probation, 100 hours of
community service, a $25 fine, and as a special condition of probation must provide
copies of any financial/business/tax records to the court for 1 year. (08-048)

                                         _______________

OIG also conducted investigations of four Department employees who were im-
properly accessing PIERS to view the records of celebrities and other prominent
individuals, but to a lesser degree than the cases referenced above. In each case, the
Department of Justice declined prosecution of the employees. All four employees
received written admonishments during the reporting period. (08-047, 09-009, 09-
018 & 09-029)

                                         _______________

OIG’s pursuit of PIERS related investigations is ongoing. Because of the systemic
weaknesses identified by OIG during the overall PIERS inquiry, the Department has
enacted greater safeguards to protect the privacy of electronically stored Passport-
related information.



Conflict Of Interest
OIG conducted an investigation of a retired senior Foreign Service officer after it
was reported to the Office of Legal Adviser that the officer failed to file her termi-
nation Financial Disclosure Report despite having received three separate written
notices and one verbal notice over a period of a year and a half. OIG had previously
investigated the officer back in 2002 for failing to file a required annual Financial
Disclosure Report and on that occasion she paid a $200 late filing fee. After being
contacted by OIG regarding the new investigation, the officer filed her outstanding
Financial Disclosure Report. On February 27, 2009, the office of Global Financial
Services advised that it withheld the mandatory $200 late filing fee from the officer’s
annuity. (08-084)




50      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Embezzlement
OIG conducted an investigation of a foreign national employee serving at a U.S.
Embassy overseas who embezzled approximately $850,000 while working as an
embassy cashier. The employee stole the money through two separate fraud schemes;
the first involved submitting phony expense vouchers for monetary payment and the
second involved obtaining cash advances from the Embassy’s cash advance accounts
at two local banks. The cashier was terminated from employment and brought to the
United States for prosecution. On January 21, 2009, the employee pleaded guilty in
U.S. District Court for the District of Columbia to one count of theft and embezzle-
ment. Sentencing of the cashier is currently scheduled for May 29, 2009. (08-088)

                                            _______________

OIG conducted an investigation of a Class B Cashier at an embassy in North Africa
who embezzled approximately $184,500 by using a “voiding scheme.” As a result of
the investigation, the cashier was prosecuted locally and resigned his employment.
On January 3, 2009, the cashier was sentenced to 2 years imprisonment and given a
$2,800 fine. The Embassy is in the process of initiating legal action to recoup assets
seized from the cashier by the local authorities as the result of his conviction. (08-
100)

                                            _______________

OIG conducted an investigation of an individual who worked for a vendor that
supplies repair services to the Department. The subject stole the credit card number
from a Department credit card that was used to pay for the vendor services and then
used the number to make approximately $14,000 in unauthorized purchases. On
January 13, 2009, OIG agents arrested the subject. On March 10, 2009, the subject
pleaded guilty in U.S. Superior Court for the District of Columbia to one count
of fraud. In his plea agreement, the subject agreed to reimburse the government
$14,049.18. Sentencing is currently scheduled for May 15, 2009. (08-087)



Employee Misconduct
OIG conducted an investigation of a Foreign Service officer who facilitated the visa
overstay in the United States of his domestic servant. The investigation determined
that the officer used his official title and Department of State letterhead in sending
a letter to the Bureau of Immigration and Customs Enforcement on behalf of the
domestic servant. On December 4, 2008, the Bureau of Human Resources proposed
a 5-day suspension for the officer. (06-033)


Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   51
 Follow-Up Actions

 Embezzlement

 OIG conducted an investigation of a Foreign Service officer who embezzled ap-
 proximately $47,000 by issuing a contract to his brother for which the Department
 did not receive any work. The Foreign Service officer resigned from the Department
 and both brothers were indicted for their roles in the scheme. On May 19, 2008, the
 former Foreign Service officer pleaded guilty to a one count charge of mail fraud
 and a one count charge of money laundering.

 On June 23, 2008, the trial of the brother commenced in the U.S. District Court for
 the Eastern District of Tennessee. On June 25, 2008, the jury acquitted the brother
 on charges of conspiracy to defraud the U.S. and conspiracy to commit money
 laundering. During the trial, the former Foreign Service officer took the stand as a
 witness for the defense and committed perjury by lying under oath about both his
 and his brother’s involvement in the fraud.

 On October 16, 2008, the former officer was sentenced to serve 6 months in a half-
 way house, 5 years’ probation and full restitution of outstanding monies owed to the
 Department. (See OIG Semi-Annual Report, April 1, 2008 to September 30, 2008, pp 62)
 (04-027)




 Hotline
     Referral To Other Offices for Action            195
     Held for Action Within OIG                      60
     No Action Necessary                             180
     Total Complaints Received                       435




52        Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES


     Preliminary Inquiries
        Opened                                                            19
        Closed                                                            15

     Investigations
        Opened                                                            67
        Closed                                                            52
        Pending (3/31/09)                                                116

     Criminal Actions
        Referrals for Prosecution                                         12
        Indictments/Informations                                           3
        Convictions                                                        5
        Sentencings (Months Imprisonment)                                 24
        Sentencings (Months Probation)                                    84
        Declinations                                                      20

     Civil Actions
        Civil Referrals                                                     0
        Civil Judgments                                                     0

     Administrative Referrals
       Referrals for Personnel Action                                     20
       Suitability Referrals to DS                                        15

     Administrative Actions
       Removals                                                             5
       Suspensions                                                          1
       Reprimand/Admonishments                                              6
       Debarment Actions                                                    0

     Monetary Recoveries
       Criminal Fines/Recoveries                                   $49,070
       Civil Recoveries                                                 $0
       Administrative Recoveries                                    $3,980
     Total Investigative Recoveries                                $53,050


  Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   53
54   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                         APPENDIX 2: REPORTS ISSUED



Report Number                 Report Title

AUD/CG-09-05                  Independent Accountants’ Report on Application of Agreed-
                              Upon Procedures on the Indirect Cost Rates Proposed by the
                              Open Society Institute
AUD/CG-09-06                  Independent Accountants’ Report on the Application of Agreed-
                              Upon Procedures on Indirect Cost Rates Proposed by the
                              American Council of Learned Societies

AUD/CG-09-14                  Independent Accountants’ Report on the Application of Agreed-
                              Upon Procedures on Direct and Indirect Costs Proposed,
                              Financial Capability, and the Accounting System Used by Youth
                              for Understanding, Inc.
AUD/FM-09-01                  Independent Auditor’s Report on the Department of State’s
                              Special-Purpose Financial Statements
AUD/FM-09-02                  Independent Auditor’s Report on the U.S. Department of State’s
                              2008 and 2007 Financial Statements
AUD/FM-09-02A                 Independent Auditor’s Report on the U.S. Department of State’s
                              2008 and 2007 Financial Statements
AUD/FM-09-07                  Audit of Undelivered Orders
AUD/IP-09-10                  Close Out of Audit of the International Trust Fund
AUD/IQO-09-04                 Audit of Procurement Competition for the New Embassy
                              Compound at Baghdad, Iraq
AUD/IT-08-36                  Review of the Information Security Program at the Department
                              of State
AUD/PP-09-09                  OIG Attestation Review of Accounting and Authentication of
                              FY 2008 Drug Control Funds and Related Performance Report
                              of the Department of State
AUD/SI-09-08                  Limited Review of Business Class Travel at a Department of
                              State Bureau
ISP-C-09-08A                  Compliance Follow-Up Review of Embassy Bogota, Colombia
ISP-I-09-01A                  Inspection of Embassy Tripoli, Libya
ISP-I-09-02A                  Inspection of Embassy N’Djamena, Chad
ISP-I-09-03A                  Inspection of Embassy Antananarivo, Madagascar
ISP-I-09-04A                  Inspection of Embassy Dar es Salaam, Tanzania
ISP-I-09-05A                  Inspection of Embassy Maputo, Mozambique


Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   55
ISP-I-09-06A               Inspection of Embassy Montevideo, Uruguay
ISP-I-09-07A               Inspection of Embassy Dublin, Ireland
ISP-I-09-09                Interim Review of the Global Repositioning Program
ISP-I-09-10A               Inspection of Embassy Tegucigalpa, Honduras
ISP-I-09-11A               Inspection of Embassy Guatemala City, Guatemala
ISP-I-09-12                Memorandum Report on Currency Exchange Rates Differing
                           from Local Legally Available Rates
ISP-I-09-13                Memorandum Report on Equal Employment Opportunity for
                           Foreign National Employees
ISP-I-09-14A               Inspection of Embassy Accra, Ghana
ISP-I-09-15A               Inspection of Embassy Banjul, The Gambia
ISP-I-09-17                Inspection of Embassy Kolonia, Federated States of Micronesia
ISP-I-09-18                Inspection of Embassy Koror, Republic of Palau
ISP-I-09-19A               Inspection of Embassy Luanda, Angola
ISP-I-09-20                Inspection of Embassy Majuro, Republic of the Marshall Islands
ISP-I-09-22A               Inspection of Embassy Niamey, Niger
ISP-I-09-23A               Inspection of Embassy Nouakchott, Mauritania
ISP-I-09-24A               Inspection of Embassy Ouagadougou, Burkina Faso
ISP-I-09-25A               Inspection of Embassy Port Moresby, Papua New Guinea
ISP-I-09-26A               Inspection of Embassy Suva, Fiji
ISP-I-09-28A               A Review of U.S. Policy Relative to Petroleum-Sector Contracting
                           in Iraq
ISP-I-09-29                Review of the Department’s Implementation of Mantraps
MERO/IQO-09-01             Status of the Secretary of State’s Panel on Personal Protective
                           Services in Iraq Report Recommendations
MERO/IQO-09-02             Review of Diplomatic Security’s Management of Personal
                           Protective Services in Iraq




56     Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                                       Classified Reports Issued

 Report Number                  Report Title

 ISP-S-09-01A                   Classified Annex to the Inspection of Embassy Tripoli,
                                Libya
 ISP-S-09-02A                   Classified Annex to the Inspection of Embassy
                                N’Djamena, Chad
 ISP-S-09-03A                   Classified Annex to the Inspection of Embassy
                                Antananarivo, Madagascar
 ISP-S-09-04A                   Classified Annex to the Inspection of Embassy Dar es
                                Salaam, Tanzania
 ISP-S-09-05A                   Classified Annex to the Inspection of Embassy Maputo,
                                Mozambique
 ISP-S-09-06A                   Classified Annex to the Inspection of Embassy
                                Montevideo, Uruguay
 ISP-S-09-07A                   Classified Annex to the Inspection of Embassy Dublin,
                                Ireland
 ISP-S-09-08A                   Classified Annex to the Compliance Followup Review to
                                Embassy Bogota, Colombia
 ISP-S-09-10A                   Classified Annex to the Inspection of Embassy
                                Tegucigalpa, Honduras
 ISP-S-09-11A                   Classified Annex to the Inspection of Embassy Guatemala
                                City, Guatemala
 ISP-S-09-14A                   Classified Annex to the Inspection of Embassy Accra,
                                Ghana
 ISP-S-09-15A                   Classified Annex to the Inspection of Embassy Banjul,
                                The Gambia
 ISP-S-09-19A                   Classified Annex to the Inspection of Embassy Luanda,
                                Angola
 ISP-S-09-22A                   Classified Annex to the Inspection of Embassy Niamey, Niger
 ISP-S-09-23A                   Classified Annex to the Inspection of Embassy Nouakchott,
                                Mauritania
 ISP-S-09-24A                   Classified Annex to the Inspection of Embassy Ouagadougou,
                                Burkina Faso
 ISP-S-09-25A                   Classified Annex to the Inspection of Embassy Port Moresby,
                                Papua New Guinea
 ISP-S-09-26A                   Classified Annex to the Inspection of Embassy Suva, Fiji
 ISP-S-09-28A                   Review of U.S. Policy Relative to Petroleum-Sector Contracting
                                in Iraq




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   57
58   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
APPENDIX 3: SAVINGS AND MORE EFECTIVE USE OF RESOURCES




                                  Table 1
                  INSPECTOR GENERAL ISSUED AUDIT REPORTS
                          WITH QUESTIONED COSTS

          Type of Report                              Number            Questioned            Unsupported
                                                    of Reports                Costs                  Costs
                                                                         (Dollars in            (Dollars in
                                                                        Thousands)             Thousands)
   A.     For which no management decision
          has been made by the commence-
          ment of the reporting period *                  7                   $2,112                 $1,551


   B.     Which were issued during the re-
          porting period                                  0                        $0                   $0
          Subtotals (A + B)
                                                          7                   $2,112                 $1,551
   C.     For which a management decision
          was made during the reporting
          period

          (i) dollar value of disallowed costs
                                                          0                        $0                   $0
          (ii) dollar value of costs not disal-
          lowed                                           0                        $0                   $0

   D.     For which no management decision
          has been made by the end of the
          reporting period                                7                   $2,112                 $1,551


          Reports for which no manage-
          ment decision was made within six
                                                          7                   $2,112                 $1,551
          months of issuance




  *Final amounts in previous SAR were adjusted to correct prior reporting and other errors.




  Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009            59
                                        Table 2
                      INSPECTOR GENERAL ISSUED AUDIT REPORTS
                         WITH RECOMMENDATIONS THAT FUNDS
                                BE PUT TO BETTER USE

              Type of Report                                             Number of                Dollar Value
                                                                          Reports              (in Thousands)
        A.    For which no management decision has
              been made by the commencement of the
                                                                               0                            $0
              reporting period
        B.    Which were issued during the reporting
              period                                                           1                        $15,831
              Subtotals (A + B)
                                                                               1                        $15,831
        C.    For which a management decision was
              made during the reporting period
              (i) dollar value of recommendations that
              were agreed to by management                                     1                        $15,800
              *based on proposed management action
                                                                               1                        $15,800
              *based on proposed legislative action
                                                                               0                            $0
              (ii) dollar value of recommendations that
              were not agreed to by management                                 1                           $31
        D.    For which no management decision has
              been made by the end of the reporting
                                                                               0                            $0
              period
              Reports for which no management
              decision was made within six months of                           0                            $0
              issuance




60   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS




  Previously Reported Significant Audit
  Recommendations Pending Final Action

   Report                   Rec. Report Title                                                        First
   Number                   No. Recommendation Summary                                               Reported
   AUD/FM-05-06                  Assessment of the Certification and Accreditation,                  11/04
                                 Change Management, and Patch Management Process

                            1        OIG recommended the Bureau of Information Re-
                                     source Management revise the security test and evalu-
                                     ation of the certification and accreditation process to
                                     include a complete vulnerability scan of the systems
                                     being assessed.

   AUD/CG-05-26                      Review of Selected Grants Awarded to institute for the 10/05
                                     Study & Development of Legal Systems
                            3        OIG recommended the Bureau of Educational and
                                     Cultural Affairs grants officer disallow all unsupported
                                     expenses charged to Grant # PSPS-G6190048 – India
                                     and Grant # S-ECAPE-02-GR -046 (CS) – Turkey.

   AUD/CG-06-02                      Application of Agreed-Upon Procedures to George                 2/06
                                     Mason University Awards

                            4        OIG recommended the Bureau of Educational and
                                     Cultural Affairs grants officer: ensure that George Ma-
                                     son University follows through with proposed guide-
                                     lines related to cost share;

                                     require the University to provide supporting documen-
                                     tation for claimed cost share amounts totaling $354,
                                     248 (grants ASMA-0324 and S-ECAAS-02-GR-251);
                                     and

                                     reduce the grants accordingly and require the Univer-
                                     sity to reimburse applicable unmet cost share amounts.




  Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009          61
Report                Rec. Report Title                                                                   First
Number                No. Recommendation Summary                                                          Reported
IT-I-06-03                 Review of the Information Security Program at the                              10/06
                           Department of State

                      7        OIG recommended the Chief Information Officer
                               develop a process for determining an accurate total
                               number of Department employees for all employees
                               required to take information security awareness train-
                               ing.

AUD/IQO-07-20                  Review of DynCorp International, LLC, Contract                             1/07
                               Number S-LMAQM-04-C-0030, Task Order 0338, for
                               the Iraqi Police Training Program Support (Joint audit
                               with the Special Inspector General for Iraq Recon-
                               struction
                      1        OIG recommended the Bureau of International
                               Narcotics and Law Enforcement Affairs (INL) pres-
                               ent a plan to the U.S. Ambassador to Iraq for review
                               and approval on the use of residential camp to house
                               police trainers, as originally intended, or make arrange-
                               ments to dispose of the camp. Because of the lengthy
                               consideration already given to deciding what to do with
                               the trailers, this action should be taken within the next
                               60 days.
                      2        OIG recommended the Office of Acquisitions Man-
                               agement seek reimbursement from DynCorp of the
                               improperly authorized payment of $4.2 million that
                               represents contractually unauthorized work directed
                               by the Iraqi Ministry of Interior. This work included
                               the relocation of the residential camp, the manufacture
                               of additional VIP trailers, and the construction of an
                               Olympic-size swimming pool.




62     Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Report                  Rec. Report Title                                                          First
Number                  No. Recommendation Summary                                                 Reported
AUD/SI-07-27                 Audit of Emergency Preparedness at the Washington                     3/07
                             Metropolitan Facilities of the Department of State

                        2        OIG recommended the Bureau of Administration en-
                                 sure the Office of Emergency Management’s Planning
                                 and Preparedness Division has sufficient staffing to fi-
                                 nalize 6 FAM 400, Office of Emergency Management
                                 Program, and the proposed 6 FAH-1 H-100, Domestic
                                 Emergency Handbook, and ensure the emergency pre-
                                 paredness policies and procedures contained in these
                                 manuals are implemented and enforced in a timely
                                 manner.
                        3        OIG recommended the Secretary’s Office of the
                                 Coordinator for Counterterrorism dedicate sufficient
                                 staff to finalize the National Incident Management
                                 System and to correct the inaccuracies in the National
                                 Response Plan, and submit the information to the
                                 Department of Homeland Security (DHS) in a timely
                                 manner.
AUD/CG-07-25                     Review of the Institute of International Education’s              4/07
                                 Indirect Cost Rates for Fiscal Years 2002-05

                        1        OIG recommended the Bureau of Educational and
                                 Cultural Affairs grants officer require the Institute of
                                 International Education to consistently account for
                                 severance pay for FYs 2002-05 as indirect or direct
                                 costs, identify overpayments of severance and other
                                 benefits related to the severance pay, reimburse the
                                 Department for unallowable severance pay and ben-
                                 efits, reduce the fringe benefits pool by the overpay-
                                 ments, and recompute the fringe benefits pool for
                                 allocation to the other cost pools.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009          63
Report              Rec. Report Title                                                                   First
Number              No. Recommendation Summary                                                          Reported
                    2    OIG recommended the Bureau of Educational and
                         Cultural Affairs grants officer require the Institute of
                         International Education to reimburse the Department
                         for bond and loan interest, personal living, and other
                         indirect costs classified as unallowable; reduce the in-
                         direct cost pools by the unallowable costs; and recom-
                         pute the indirect cost rates in the appropriate pools.

AUD/CG-07-29                 Independent Accountants’ Report on the Application                         6/07
                             of Agreed-Upon Procedures on Costs Claimed by
                             Atlantic Corridor U.S.A., Inc., Under Department of
                             State Grants
                    1        OIG recommended the Bureau of Educational and
                             Cultural Affairs require Atlantic Corridor to refund
                             the Department the $226,705 in excess drawdowns
                             related to Department grants and prohibit any future
                             drawdowns until the funds are repaid and the grantee
                             has established controls limiting any future requests
                             of grant funds to the minimum amount necessary to
                             cover allowable costs.
                    2        OIG recommended the Bureau of Educational and
                             Cultural Affairs require Atlantic Corridor to refund the
                             Department for $45,361 of unallowable costs related
                             to the grants and to provide information so that the
                             Department can make an appropriate determination
                             on the unsupported costs of $97,388.
AUD/IP-07-47                 Return-to-Work: An Important Program for the De-                           8/07
                             partment of State to Implement

                    1        OIG recommended the Bureau of Human Resources
                             develop and implement a return-to-work program for
                             workers’ compensation beneficiaries considering the
                             best proactive elements discussed in this report.




64   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
 Report                   Rec. Report Title                                          First
 Number                   No. Recommendation Summary                                 Reported
 AUD/CG-07-37                  Independent Accountants’ Report on the Application 9/07
                               of Agreed-Upon Procedures on Costs Claimed by Me-
                               ridian International Center Under Department of State
                               Cooperative Agreements
                          1        OIG recommended the Bureau of Educational and
                                   Cultural Affairs (1) determine whether the Center’s
                                   use of the forgone opportunity costs concerning the
                                   Center’s conference facilities constitutes an appropriate
                                   cost-share amount under the cooperative agreement,
                                   and (2) following this determination, as appropriate,
                                   require the Center to provide supporting documenta-
                                   tion for the claimed cost-share amounts or an alterna-
                                   tive cost-sharing proposal.
 AUD/IQO-07-48                     Accounting for Government-Owned Personal Prop-                  9/07
                                   erty Held by Selected Contractors in Afghanistan

                          1        OIG recommended the Department develop and
                                   implement policies and procedures to achieve compli-
                                   ance with Federal Acquisition Regulation requirements
                                   for reviewing a contractor’s property control system.

                          2        OIG recommended the Department take actions to
                                   address the $2.9 million in unallowable costs identi-
                                   fied in this report, including reconciling contract
                                   requirements to the property acquired and invoiced
                                   by the contractors for which they were reimbursed
                                   and determine whether property in excess of amounts
                                   specified in the contract or task order was required
                                   to accomplish contract objectives; documenting the
                                   reconciliation and determination, use them as the basis
                                   for approving the costs of any excess property deemed
                                   allowable, and issue a modification to the task order
                                   indicating the approval; and resolving any unallowable
                                   costs associated with property that was determined
                                   to be unnecessary to the accomplishment of contract
                                   objectives.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009          65
Report              Rec. Report Title                                             First
Number              No. Recommendation Summary                                    Reported
                    3    OIG recommended the Department take the follow-
                         ing steps to address the $25.5 million in unsupported
                         costs identified in this report: reconcile the property
                         acquired and invoiced by the contractors for which
                         they were reimbursed to the contractor’s property lists
                         by obtaining and reviewing contractor documentation
                         detailing the types and quantities of property acquired;
                         determine whether the property was needed and
                         consistent with contract requirements; and resolve any
                         unsupported allowable costs associated with property
                         that could not be supported with adequate documen-
                         tation or was determined to be unnecessary to the
                         accomplishment of contract objectives.

                    4        OIG recommended the Department develop and
                             implement a process for reviewing the capitalized asset
                             reports submitted by contractors to verify that reports
                             are received for all contracts with contractor-held
                             property and reconciling, at least annually, the capi-
                             talized asset reports submitted by contractors to the
                             contractors’ property lists to verify that the capitalized
                             asset reports are complete and accurate.

                    5        OIG recommended the Department evaluate its cur-
                             rent structure for monitoring government property
                             held by contractors, assess the benefits of creating a
                             property administrator function, and use this evalua-
                             tion to clearly define the authority and responsibility
                             for property oversight for each member of its contract
                             administration team.

                    6        OIG recommended the Department develop and
                             implement policies and procedures for monitoring
                             government property held by contractors.




66   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
 Report                   Rec. Report Title                                                        First
 Number                   No. Recommendation Summary                                               Reported
 AUD/CG-08-02                  Independent Accountants’ Report on the Application                  1/08
                               of Agreed-Upon Procedures on Costs Claimed by
                               Young Men’s Christian Association of Greater New
                               York Under Department of State Grants

                          4        OIG recommended that the Bureau of Educational
                                   and Cultural Affairs require the Association to sub-
                                   stantiate the unsupported payroll costs or reimburse
                                   the Department for these costs.
 AUD/CG-08-10                      Independent Accountants’ Report on the Application              1/08
                                   of Agreed-Upon Procedures on Indirect Cost Rates
                                   Proposed by NAFSA: Association of International
                                   Educators

                          1        OIG recommended that the Bureau of Administra-
                                   tion, Office of Logistics Management, Office of
                                   Acquisitions Management, International Programs
                                   Division accept and finalize the indirect cost rates for
                                   2005 and 2004 as recommended in this report.
 AUD/IP-08-19                      Safeguarding Domestic Passport Applications During              3/08
                                   Transit
                          1        OIG recommended that the Bureau of Consular Af-
                                   fairs direct the Office of Passport Services to modify
                                   the Passport Agent’s Reference Guide to define the
                                   minimum standards for a secure area, such as plac-
                                   ing the applications in a locked container until all the
                                   applications are transported and issue a notice to all
                                   acceptance agents regarding this change.

                          2        OIG recommended that the Bureau of Consular Af-
                                   fairs direct the Office of Passport Services to include
                                   provisions in its acceptance agent oversight program
                                   for monitoring the effectiveness of acceptance agents
                                   in securing passport applications.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009          67
Report              Rec. Report Title                                              First
Number              No. Recommendation Summary                                     Reported
                    3    OIG recommended that the Bureau of Consular Af-
                         fairs direct the Office of Passport Services to require
                         non-USPS acceptance agents to send passport applica-
                         tions in a traceable manner, such as with deliver confir-
                         mation, and to retain the receipts for a year.
                    4        OIG recommended that the Bureau of Consular Af-
                             fairs direct the Office of Passport Services to work
                             with officials from the Department of the Treasury to
                             review the process used to transport passport applica-
                             tions from the lockbox facilities to passport agencies
                             and to develop a workload distribution analysis that
                             reduces the use of routes with numerous transfers.

                    5        OIG recommended that the Bureau of Consular Af-
                             fairs direct the Office of Passport Services to require
                             that anyone without a need to access applications
                             (such as contracted cleaning, repair, and maintenance
                             personnel) be escorted by Office of Passport Services
                             personnel and kept in direct visual sight.
                    6        OIG recommended that the Bureau of Consular Af-
                             fairs direct the Office of Passport Services to a) secure
                             passport applications in locked cabinets, containers,
                             or rooms when not actively being processed and b)
                             amend the internal controls program accordingly.

                    7        OIG recommended that the Bureau of Consular Af-
                             fairs direct the Office of Passport Services to issue an
                             advisory notice within 14 days of the issuance of this
                             audit report to all acceptance agents informing them
                             of the Inspector General’s authority to review passport
                             records as specified in the Inspector General Act.
                    8        OIG recommended that the Bureau of Consular Af-
                             fairs direct the Office of Passport Services to modify
                             the Passport Agent’s Reference Guide to require agents
                             to make their passport records available for monitor-
                             ing, audit, or investigation.




68   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Report                  Rec. Report Title                                                          First
Number                  No. Recommendation Summary                                                 Reported
                        9    OIG recommended that the Bureau of Consular Af-
                             fairs direct the Office of Passport Services to modify
                             the provisions in the designation letter to make pass-
                             port records available for monitoring, audit, or investi-
                             gation and reissue the designation letter for all accep-
                             tance agents.
AUD/CG-08-23                     Independent Accountants’ Report on the Application                5/08
                                 of Agreed-Upon Procedures on Indirect Cost Rates
                                 Proposed by the Council on International Educational
                                 Exchange, Inc.
                        1        OIG recommended that the Bureau of Administra-
                                 tion, Office of Logistics Management, Office of
                                 Acquisitions Management, International Programs
                                 Division accept and finalize the indirect cost rates for
                                 fiscal years 2005, 2004, and 2003 as recommended in
                                 this report.
AUD/CG-08-28                     Independent Accountants’ Report on the Application 5/08
                                 of Agreed-Upon Procedures on Final Buyout Claim by
                                 Enviro-Management & Research, Inc., Under Contract
                                 No. S-FBOAD-98-DOO10


                        1        OIG recommended that the Bureau of Administra-
                                 tion, Office of Logistics Management, Office of
                                 Acquisitions Management, decline to pay Enviro-
                                 Management & Research, Inc., its buyout claim under
                                 the contract and require the company to reimburse
                                 the Department of State for overpayments totaling
                                 $15,607.03.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009          69
Report               Rec. Report Title                                                                   First
Number               No. Recommendation Summary                                                          Reported
AUD/CG-08-32              Independent Accountants’ Report on the Application                             8/08
                          of Agreed-Upon Procedures on Indirect Cost Rates
                          Proposed by Nacel Open Door, Inc.

                     3        OIG recommended that the Department’s Bureau of
                              Educational and Cultural Affairs (ECA) require Nacel
                              Open Door, Inc., to (a) establish appropriate policies
                              and procedures to ensure that costs under the grants
                              are adequately documented and accounted for in ac-
                              cordance with applicable Office of Management and
                              Budget circulars and (b) provide information so that
                              ECA can make an appropriate determination on the
                              unsupported costs of $94,524.




Previously Reported Significant Inspections
Recommendations Pending Final Action

Report      Rec. Report Title                                                   First
Number      No. Recommendation Summary                                          Reported
ISP-C-07-04      Compliance Follow-up Review of the Inspection of the USIBWC    10/06
            1    OIG recommended the Bureau of Western Hemisphere Af-
                 fairs, in coordination with the Bureau of Legislative Affairs,
                 the Office of the Legal Adviser, and the Bureau of Human
                 Resources, seek legislation making the U.S. Section of the
                 International Boundary and Water Commission an entity of
                 the Department of State.
ISP-I-07-16              Inspection of the Bureau of Human Resources (Phase I)        5/07
               13        The Bureau of Human Resources, in coordination with
                         the Foreign Service Institute, should establish an Executive
                         Advisory Board to provide oversight of the Career Entry
                         Program and include representatives from the Office of
                         Civil Service Personnel Management (HR/CSP); Office of
                         Recruitment, Examination and Employment (HR/REE);
                         Foreign Service Institute (FSI); and an individual from out-
                         side the Department. (Action: HR, in coordination with FSI)


70    Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
 Report             Rec. Report Title                                                First
 Number             No. Recommendation Summary                                       Reported
                    33   The Bureau of Human Resources should, in coordination
                         with the Bureau of Resource Management, establish a global
                         savings mechanism to supplement the locally employed
                         staff ’s retirement plan. (Action: HR, in coordination with
                         RM)
 ISP-I-07-21                 Inspection of the Bureau of Administration, Office of Logistics       5/07
                             Operations and Office of Program Management and Policy
                    10       OIG recommended the Bureau of Resource Management,
                             in coordination with the Bureau of Administration, establish
                             procedures in the Foreign Affairs Manual to require that
                             all bureau and office heads, and chiefs of mission assure in
                             their management controls certifications that an inventory
                             was conducted and reconciled with property records and
                             that the results were submitted.
                    13       OIG recommended the Bureau of Administration revise
                             regulations to eliminate the criteria allowing the authoriza-
                             tion of adjustments when shortages total less than 1 percent
                             of the stated inventory value and, when a shortage exists,
                             instead require all domestic and overseas entities to submit
                             either the applicable Property Survey Report or Property
                             Disposal Authorization and Survey Report with the inven-
                             tory certification.

                    22       OIG recommended the Bureau of Resource Management,
                             in coordination with the Bureau of Administration, estab-
                             lish and implement a system to pay the U.S. Postal Service
                             and bill and collect reimbursement from other agencies for
                             postal service provided to posts being converted to Depart-
                             ment-managed postal operations.
                    27       OIG recommended the Bureau of Human Resources, in
                             coordination with the Bureau of Administration, establish
                             a logistics management function skill code and a logistics
                             certification program for logistics professionals worldwide.




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009          71
Revised Management Decisions
None to report.



Significant Management Success in Resolving and
Implementing Recommendations

Actions Taken to Improve Fire and Life Safety
at Overseas Posts

In the 2008 inspection of the Bureau of Overseas Buildings Operations (OBO),
OIG recommended that the frequency of fire and life safety inspections at all over-
seas missions be increased to an annual basis as mandated by statute. As a result,
OBO increased staff levels to permit site visits every 2 years. To comply with the
annual requirement, OBO will require posts to conduct an inspection during the
“off years,” and provide OBO with a certification that the inspection was completed
and a summary of the results. OBO will assist posts with this new requirement by
expanding training for post personnel in fire prevention principles and extinguisher
maintenance. OBO transmitted a telegram to all diplomatic missions notifying them
of this major change, and is in the process of updating the Foreign Affairs Manual.



Summary of Audit Reports Without Management
Decision for More Than Six Months
Report Number: AUD/CG-05-26
Subject: Review of Selected Grants Awarded to Institute for the Study &
Development of Legal Systems
Date Issued: October 18, 2005
Reason for not being resolved: In an August 25, 2006, e-mail to OIG, the Bureau
of Educational and Cultural Affairs (ECA) stated that it lacked a sufficient number
of grants officers to address the report’s recommendations and would not be able
to address them until October 2006. As of March 2009, ECA had not responded
to OIG’s January 24, March 4, and June 10, 2008, requests for a response to the
recommendations.
Projected date of resolution: September 2009



72      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
Report Number: AUD/CG-06-02
Subject: Application of Agreed-Upon Procedures to George Mason University
Awards
Date Issued: February 24, 2006
Reason for not being resolved: In an August 25, 2006, e-mail to OIG, ECA
stated that it lacked a sufficient number of grants officers to address the report’s
recommendations and would not be able to address them until October 2006. As of
March 2009, ECA has not responded to OIG’s January 24, March 4, and June 10,
2008, requests for a response to the recommendations.
Projected date of resolution: September 2009

Report Number: AUD/FM-06-39
Subject: Internal Controls Related to Travel Advances
Date Issued: September 29, 2006
Reason for not being resolved: As of March 2009, the Bureau of Resource
Management (RM) had not responded to the report’s recommendations when the
report was issued or to OIG’s most recent request for a response, sent on June 16,
2008.
Projected date of resolution: September 2009

Report Number: AUD/FM-07-28
Subject: Internal Procurement Practices at Embassy Berlin
Date Issued: July 12, 2007
Reason for not being resolved: Embassy Berlin responded to OIG’s
recommendations in a January 2008 cable. OIG analyzed the response and
determined the actions taken by the Embassy will satisfy the intent of all but one
of the recommendations. Embassy Berlin did not address the substance of the
recommendation pertaining to the development and implementation of a plan to
review its procurement processes.
Projected date of resolution: September 2009.

Report Number: AUD/IQO-07-20
Subject: Review of DynCorp International, L.L.C, Contract Number S-LMAQM-
04-C-0030, Task Order 0338, for the Iraqi Police Training Program Support
Date Issued: January 30, 2007
Reason for not being resolved: The Bureau of Administration disagreed
with OIG on the recommendation (No. 6) pertaining to the establishment and
enforcement of tenure limitations for contracting personnel. OIG is reviewing the
Bureau’s justification for not implementing this recommendation.
Projected date of resolution: September 2009.

 Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   73
     Report Number: AUD/CG-08-02
     Subject: Independent Accountants’ Report on the Application of Agreed-Upon
     Procedures on Costs Claimed by Young Men’s Christian Association of Greater New
     York Under Department of State Grants
     Date Issued: December 19, 2007
     Reason for not being resolved: As of March 2009, ECA had not responded
     to OIG’s March 4 or June 10, 2008, requests for a response to the report’s
     recommendations.
     Projected date of resolution: September 2009

     Report Number: AUD/CG-08-10
     Subject: Independent Accountants’ Report on the Application of Agreed-
     Upon Procedures on Indirect Cost Rates Proposed by NAFSA: Association of
     International Educators
     Date Issued: January 31, 2008
     Reason for not being resolved: As of March 2009, the Bureau of Administration,
     Office of Logistics Management, Office of Acquisitions Management, International
     Programs Division, had not responded to the report’s recommendation.
     Projected date of resolution: September 2009

     Report Number: AUD/CG-08-11
     Subject: Independent Accountants’ Report on the Application of Agreed-Upon
     Procedures on Indirect Cost Rates Proposed by Sister Cities International, Inc.
     Date Issued: January 17, 2008
     Reason for not being resolved: As of March 2009, the Bureau of Administration,
     Office of Logistics Management, Office of Acquisitions Management, International
     Programs Division, had not responded to the report’s recommendation. This
     recommendation remains unresolved.
     Projected date of resolution: September 2009.

     Report Number: AUD/CG-08-28
     Subject: Independent Accountants’ Report on the Application of Agreed-Upon
     Procedures on Final Buyout Claim by Enviro-Management & Research, Inc., Under
     Contract No. S-FBOAD-98-DOO10
     Date Issued: May 15, 2008
     Reason for not being resolved: As of March 2009, the Bureau of Administration,
     Office of Logistics Management, Office of Acquisitions Management, had
     not responded to the report’s recommendation. This recommendation remains
     unresolved.
     Projected date of resolution: September 2009

74     Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS



AUD/CG-09-06                 Independent Accountants’ Report on the Application of
                             Agreed-Upon Procedures on Indirect Cost Rates Proposed
                             by the American Council of Learned Societies
                             L.F. Harris & Associates, CPA, P.A.
                             Indirect Cost Rate Review

AUD/CG-09-05                 Independent Accountants’ Report on the Application of
                             Agreed-Upon Procedures on Indirect Cost Rates Proposed
                             by the Open Society Institute
                             L.F. Harris & Associates, CPA, P.A.
                             Indirect Cost Rate Review

AUD/CG-09-14                 Independent Accountants’ Report on the Application of
                             Agreed-Upon Procedures on Direct and Indirect
                             Costs Proposed, Financial Capability, and the Accounting
                             System Used by Youth for Understanding, Inc.
                             Leonard G. Birnbaum and Company, LLP
                             Financial Capability Review

AUD/FM-09-01                 Independent Auditor’s Report on the Department of State’s
                             Special-Purpose Financial Statements
                             Leonard G. Birnbaum and Company, LLP
                             Financial Audit

AUD/FM-09-02                 Independent Auditor’s Report on the U.S. Department of
                             State’s 2008 and 2007 Financial Statements
                             Leonard G. Birnbaum and Company, LLP
                             Financial Audit

AUD/FM-09-02A                Independent Auditor’s Report on the U.S. Department of
                             State’s 2008 and 2007 Financial Statements
                             Leonard G. Birnbaum and Company, LLP
                             Financial Audit




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   75
76   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
BROADCASTING BOARD OF GOVERNORS
                                                   AUDITS




Independent Auditor’s Report on the
Broadcasting Board of Governors’ 2008 and
2007 Financial Statements (AUD/FM-09-03)

OIG’s independent external auditor issued an unqualified opinion on BBG’s annual
financial statements as of September 30, 2008 and 2007, and for the years then end-
ed. Although an unqualified opinion was issued, the report brought to management’s
attention two significant deficiencies related to internal controls over the financial
and accounting system and accounts payable.



Management Letter Related to the Audit of the
Broadcasting Board of Governors 2008 and 2007
Financial Statements (AUD/IB-09-12)

During the audit of BBG’s 2008 and 2007 financial statements, the independent ex-
ternal auditor identified internal control weaknesses or instances of noncompliance
with selected provisions of applicable laws and regulations relating to property, plant,
and equipment; undelivered orders; government purchase cards; grants management;
information security; payroll; and non-personnel expenses. The external auditor rec-
ommended that BBG take appropriate action to address these weaknesses.



Review of the Information Security Program at the
Broadcasting Board of Governors (AUD/IT-08-37)

In response to the Federal Information Security Management Act of 2002 (FISMA),
OIG performed an independent evaluation of the information security program at
BBG. OIG reviewed BBG’s progress in addressing information management and
information security program requirements per FISMA and other statutory require-
ments, including Office of Management and Budget (OMB) guidance. OIG assessed
performance in areas such as inventory, plan of action and milestones (POA&M),


   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   79
certification and accreditation (C&A), security planning, contingency planning, risk
management, incident response, security awareness and training, configuration man-
agement, and privacy requirements.

OIG could not perform an assessment of the adequacy of BBG’s oversight and
evaluation for 13 of its 14 identified systems because BBG had not conducted all as-
pects of a formal security program during FY 2008 and therefore could not provide
the supporting documentation that would have been available for this FISMA review.
As a result, BBG’s overall assessment is poor, with improvements needed in several
areas. OIG noted instances where improvements had been made since the FY 2007
review, and it made several recommendations for additional improvements needed
for BBG’s information security program. These recommendations related to invento-
ry, POA&Ms, C&A, incident response, configuration management controls, systems
security plan, and the handling and reporting of security incidents.




80      Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                                             INSPECTIONS




Inspection of Voice of America’s Persian
News Network (ISP-IB-09-27)

OIG found the Persian News Network (PNN) was performing a vital function. It
was the only platform from which the U.S. Government could reach an Iranian audi-
ence with unbiased news and information about U.S. foreign policy and American
life. The broadcasting mission of Radio Free Europe/Radio Liberty’s Radio Farda is
to provide information on news and events within Iran.

Voice of America (VOA) successfully built PNN (formerly Persian Service) into its
first full-fledged network in an extraordinarily short period of time. Given the U.S.
strategic interest in communicating with Iranians, PNN represented a major achieve-
ment in setting up a network that reached approximately 29 percent of Iranians. The
increasing importance of the Internet in Iranian society provided VOA with a plat-
form that had the potential to dramatically increase its audience. A strategic plan to
exploit that potential, in a manner that complements Radio Farda’s Internet efforts,
was essential as PNN moved forward.

The explosive growth of PNN television came, in part, at the expense of radio.
VOA radio broadcasts to Iran may have reached a point of marginal return on
investment given the round-the-clock broadcasts of Radio Farda, the likelihood of
PNN increasing its focus on the Internet as a platform to connect with audiences
inside Iran, and overall resource restraints. Continuation of PNN radio was an ap-
propriate issue for the BBG language service review process.

Rapid growth brought a number of problems along with it, including questions of
program mix and quality and a lingering atmosphere of discontent among employ-
ees. Ameliorating them would be a necessary step in the consolidation of VOA’s
gains in an important broadcasting arena. There was widespread perception among
employees that the PNN hiring practices and other personnel actions were not trans-
parent and may have favored certain groups.




   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   81
Inspection of International Broadcasting
Bureau Regional Marketing Office, Embassy
Accra, Ghana (ISP-IB-09-45)

An experienced and active regional marketing director led the International Broad-
casting Bureau regional marketing office in Accra. Additional resources were needed
in order to provide marketing support for its affiliates and clients in West Africa.

Many of VOA’s affiliates in Africa are far away from modern communications. A tru-
ly comprehensive program of checks including small affiliate stations would not be
cost-effective in light of the modest amounts the Office of Marketing and Program
Placement pays most African affiliates. The marketing office’s payment of affiliates
and vendors was sometimes slow.
                                          BEST PRACTICE

              Inspection of Voice of America’s Persian News Network

     Best Practice: PNN Insider Enhances Communications and Transparency

     Issue: Voice of America’s Persian News Network (PNN) employs more than
     200 people in one capacity or another. It was hard for the workers to keep up
     with the main television programming created by their colleagues. In addition,
     because the programs are in the Persian language, non-Persian speakers did
     not know what was happening on PNN. There was no way to inform interest-
     ed parties in BBG, Congress, the Department, and other agencies of PNN’s
     main stories. Finally, PNN had no efficient database that could serve as a
     quick, historical reminder of PNN’s coverage on a weekly basis.

     Response: About a year and a half ago, PNN began an internal weekly
     newsletter called PNN Insider about major PNN programs. It was initially be-
     gun to serve as a historical reference and was distributed at first in hardcopy.
     As PNN increased its television hours in the last 2 years, it went to an elec-
     tronic format and distribution. Every PNN program has a designated repre-
     sentative who sends weekly highlights to the Insider editor. The newsletter is
     e-mailed to all PNN employees. It is also sent to various people in Congress,
     BBG, the Department, and to others who request it.

     Result: PNN employees now find it easier to keep up with PNN’s output.
     Non-Persian speakers have a chance to read summaries of major coverage
     in English. The summaries provide transparency into PNN’s work. Now, says
     a PNN manager, answers to queries can be found “at the drop of a hat.”




82       Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                                      INVESTIGATIONS




OIG conducted an investigation of a BBG employee who received Metrocheck
benefits even though she was driving in to work nearly every day. A surveillance
conducted on the employee was able to demonstrate that the employee was not using
her Metrochecks for commuting expenses. On November 20, 2008, the employee
was interviewed by OIG and admitted to her activities and immediately repaid BBG
$3,780 for the cost of the Metrochecks. The case was declined for criminal prosecu-
tion by the Department of Justice, and an administrative referral for consideration
of disciplinary action against the employee is currently pending. (07-031)




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   83
84   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES



      Preliminary Inquiries
         Opened                                                                  0
         Closed                                                                  0

      Investigations
         Opened                                                                  0
         Closed                                                                  0
         Pending (3/31/09)                                                       0

      Criminal Actions
         Referrals for Prosecution                                               1
         Indictments/Informations                                                0
         Convictions                                                             0
         Sentencings (Months Imprisonment)                                       0
         Sentencings (Months Probation)                                          0
         Declinations                                                            1

      Civil Actions
         Civil Referrals                                                         0
         Civil Judgments                                                         0

      Administrative Referrals
        Referrals for Personnel Action                                           1
        Suitability Referrals to DS                                              0

      Administrative Actions
        Removals                                                                 0
        Suspensions                                                              0
        Reprimand/Admonishments                                                  0
        Debarment Actions                                                        0

      Monetary Recoveries
        Criminal Fines/Recoveries                                             $0
        Civil Recoveries                                                      $0
        Administrative Recoveries                                         $3,780
      Total Investigative Recoveries                                      $3,780


   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   85
86   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                     APPENDIX 2: REPORTS ISSUED



 Report Number                                                   Report Title

 AUD/FM-09-03                     Independent Auditor’s Report on the Broadcasting Board of
                                  Governor’s 2008 and 2007 Financial Statements
 AUD/IB-09-12                     Management Letter Related to the Audit of the Broadcasting
                                  Board of Governors 2008 and 2007 Financial Statements
 AUD/IT-08-37                     Review of the Information Security Program at the
                                  Broadcasting Board of Governors
 ISP-IB-09-27                     Inspection of Voice of America’s Persian News Network
 ISP-IB-09-45                     Inspection of International Broadcasting Bureau Regional
                                  Marketing Office, Embassy Accra, Ghana




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   87
88   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES




                                  Table 1
                  INSPECTOR GENERAL ISSUED AUDIT REPORTS
                          WITH QUESTIONED COSTS

                  Type of Report                  Number of             Questioned            Unsupported
                                                   Reports                    Costs                  Costs
                                                                         (Dollars in            (Dollars in
                                                                        Thousands)             Thousands)
   A.     For which no management
          decision has been made by
          the commencement of the                       0                          $0                   $0
          reporting period

   B.     Which were issued during the
          reporting period                              0                          $0                   $0

          Subtotals (A + B)                             0                          $0                   $0
   C.     For which a management
          decision was made during the
                                                        0                          $0                   $0
          reporting period

          (i) dollar value of disallowed
                                                                                   $0
          costs
          (ii) dollar value of costs not
          disallowed                                                               $0

   D.     For which no management
          decision has been made by
          the end of the reporting                      0                          $0                   $0
          period

          Reports for which no man-
          agement decision was made
                                                        0                          $0                   $0
          within six months of issuance




  Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009            89
                               Table 2
             INSPECTOR GENERAL ISSUED AUDIT REPORTS
                WITH RECOMMENDATIONS THAT FUNDS
                       BE PUT TO BETTER USE

                      Type of Report                            Number of             Dollar Value
                                                                 Reports                  (in
                                                                                      Thousands)
A.     For which no management decision has
       been made by the commencement of the                            0                     $0
       reporting period

B.     Which were issued during the reporting
                                                                       0                     $0
       period
       Subtotals (A + B)
                                                                       0                     $0
C.     For which a management decision was
       made during the reporting period                                0                     $0

       (i) dollar value of recommendations that
       were agreed to by management                                    0                     $0

       *based on proposed management action

       *based on proposed legislative action
       (ii) dollar value of recommendations that
       were not agreed to by management                                0                     $0

D.     For which no management decision has
       been made by the end of the reporting                           0                     $0
       period
       Reports for which no management decision
       was made within six months of issuance                          0                     $0




90   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
   APPENDIX 4: AUDITS PERFORMED BY CONTRACTORS




AUD/FM-09-03              Independent Auditor’s Report on the Broadcasting Board of
                          Governors’ 2008 and 2007 Financial Statements
                          Leonard G. Birnbaum and Company, LLP
                          Financial Audit

AUD/IB-09-12              Management Letter Related to the Audit of the Broadcasting
                          Board of Governors 2008 and 2007 Financial Statements
                          Leonard G. Birnbaum and Company, LLP
                          Financial Audit




  Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   91
92   Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                                    ABBREVIATIONS




     A/LM/AQM                              Bureau of Administration, Office of Logistics
                                           Management, Office of Acquisition Management
     ARRA                                  American Recovery and Restabilization Act
     BBG                                   Broadcasting Board of Governors
     C&A                                   Certification and accreditation
     CFR                                   Compliance follow-up review
     COFA                                  Compact of Free Association
     DCM                                   Deputy chief of mission
     Department                            U.S. Department of State
     DS                                    Bureau of Diplomatic Security
     ECA                                   Bureau of Educational and Cultural Affairs
     FAR                                   Federal Acquisition Regulation
     FISMA                                 Federal Information Security Management Act
     FSBA                                  Foreign Service Buildings Act
     FSI                                   Foreign Service Institute
     GRP                                   Global Repositioning Program
     GSA                                   General Services Administration
     HR                                    Bureau of Human Resources
     HR/CSP                                Office of Civil Service Personnel Management,
                                           HR
     HR/REE                                Office of Recruitment, Examination and
                                           Employment, HR
     ICASS                                 International Cooperative Administrative Support
                                           Services
     IBB                                   International Broadcasting Bureau
     INL                                   Bureau of International Narcotics and Law
                                           Enforcement Affairs




Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009   93
     IOC                                   International oil company
     IRM                                   Bureau of Information Resource Management
     ITF                                   International Trust Fund for Demining and Mine
                                           Victims Assistance
     LE                                    Locally employed
     MERO                                  Middle East Regional Office
     NEC                                   New embassy compound
     NSDD-38                               National Security Decision Direction-38
     OBO                                   Bureau of Overseas Buildings Operations
     ONDCP                                 Office of National Drug Control Policy
     OIG                                   Office of Inspector General
     OMB                                   Office of Management and Budget
     PIERS                                 Passport Information Electronic Records System
     PM/WRA                                Bureau of Political-Military Affairs, Office of
                                           Weapons Removal and Abatement
     PNN                                   Persian News Network
     POA&M                                 Plan of action and milestones
     PSA                                   Production sharing agreement
     PSC                                   Ppersonal service contractor
     RATB                                  Recovery Accountability and Transparency Board
     RM                                    Bureau of Resource Management
     SAR                                   Semiannual Report to the Congress
     TSA                                   Technical service agreement
     UDO                                   Undelivered orders
     USAID                                 U.S. Agency for International Development
     USIBWC                                International Boundary and Water Commission,
                                           United States and Mexico, U.S. Section
     VOA                                   Voice of America




94         Office of Inspector General Semiannual Report to the Congress, October 1, 2008 to March 31, 2009
                        INDEX   OF   REPOR TING REQUIREMENTS
                   INSPECTOR GENERAL ACT        OF   1978,     AS AMENDED




REQUIREMENT                               SUBJECT                                  PAGE NUMBERS

Section 4(a)(2)        Review of legislation and regulations                       10-11

Section 5(a)(1)        Summary of Significant problems, abuses, and deficiencies    3-8

Section 5(a)(2)        Significant recommendations for corrective action           72-74

Section 5(a)(3)        Prior significant recommendations unimplemented             61-71

Section 5(a)(4)        Matters referred to prosecutive authorities                 49-52, 83

Section 5(a)(5)        Information or assistance refused                           none

Section 5(a)(6)        List of reports issued                                      55-57, 87

Section 5(a)(7)        Summaries of significant reports                            15-45, 79-83

Section 5(a)(8)        Audit reports–questioned costs                              59, 89

Section 5(a)(9)        Audit reports–funds to be put to better use                 60, 90

Section 5(a)(10)       Prior audit reports unresolved                              72-74

Section 5(a)(11)       Significant revised management decisions                    none

Section 5(a)(12)       Significant management decisions with which
                       OIG disagreed                                               none
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
      of Federal programs and resources
               hurts everyone.

      Call the Office of Inspector General
                    HOTLINE
                  202-647-3320
               or 1-800-409-9926
       or e-mail oighotline@state.gov
     to report illegal or wasteful activities.

             You may also write to
          Office of Inspector General
           U.S. Department of State
             Post Office Box 9778
              Arlington, VA 22219

    Please visit our website at oig.state.gov

        Cables to the Inspector General
        should be slugged “OIG Channel”
           to ensure confidentiality.
               BLE OF CONTENTS
